        EVALUATION REPORT

Independent Evaluation of NRC’s Use and Security of Social Media

                   OIG-13-A-08       January 23, 2013




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                            UNITED STATES
                    NUCLEAR REGULATORY COMMISSION
                             WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                          January 23, 2013



MEMORANDUM TO:             R. William Borchardt
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   INDEPENDENT EVALUATION OF NRC’S USE AND
                           SECURITY OF SOCIAL MEDIA (OIG-13-A-08)


Attached is the Office of the Inspector General’s (OIG) independent evaluation report
titled, Independent Evaluation of NRC’s Use and Security of Social Media
(OIG-13-A-08).

The report presents the results of the subject evaluation. Agency comments provided
during a December 7, 2012, exit conference have been incorporated, as appropriate,
into this report.

Please provide information on actions taken or planned on the recommendations within
30 days of the date of this memorandum. Actions taken or planned are subject to OIG
followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
evaluation. If you have any questions or comments about our report, please contact me
at 415-5915 or Beth Serepca, Team Leader, at 415-5911.

Attachment: As stated
CONTENTS
EXECUTIVE SUMMARY .................................................................................... IV
AGENCY COMMENTS ..................................................................................... VIII
CHAPTER 1: SOCIAL MEDIA MEASUREMENT.................................................. 1
  NRC Narrowly Defines Social Media Success .................................................. 1
  NRC Has made Progress Against All its Social Media Objectives .................... 1
  Platform Metrics and Analysis ........................................................................... 3
  Further Platform Analysis .................................................................................. 4
     NRC Blog ....................................................................................................... 4
     Twitter ............................................................................................................ 5
     Flickr .............................................................................................................. 6
     YouTube ........................................................................................................ 6
CHAPTER 2: SOCIAL MEDIA DIAGNOSTIC ....................................................... 8
  CONTENT ......................................................................................................... 8
     Transparency ................................................................................................. 8
     Relevance .................................................................................................... 10
     Compelling ................................................................................................... 11
     Engagement ................................................................................................ 15
  REACH ............................................................................................................ 17
     Social Network ............................................................................................. 17
     Audience Segmentation ............................................................................... 22
     Awareness ................................................................................................... 22
  INFLUENCE .................................................................................................... 25
  SECURITY ...................................................................................................... 30
     Policy ........................................................................................................... 30
     Safeguards .................................................................................................. 33
     Security Assessments ................................................................................. 33
     Training ........................................................................................................ 35
     Awareness ................................................................................................... 39
   INTEGRATION ............................................................................................... 44
CHAPTER 3: CONSOLIDATED RECOMMENDATIONS ................................... 47
   Agency Comments.......................................................................................... 50


                                                            i
APPENDIX I. SCOPE AND METHODOLOGY .................................................I-1
APPENDIX II. ABBREVIATIONS AND ACRONYMS ......................................II-1
APPENDIX III. SOCIAL MEDIA EVALUATION GLOSSARY .........................III-1
APPENDIX IV. BEST PRACTICES ............................................................... IV-1
APPENDIX V. WEB TOOLS .......................................................................... V-1
APPENDIX VI. SOCIAL MEDIA EVALUATION INTERVIEW LIST ............... VI-1
APPENDIX VII. REFERENCES AND SOURCE MATERIALS ..................... VII-1
FIGURES
Figure 1: Timeline of Social Media Activity and Viewership Across NRC‘s Social
Media Platforms .................................................................................................... 3
Figure 2: Public Perceptions of Nuclear Topics .................................................... 9
Figure 3: Screenshot of ―NRC Watching Isaac‖ Blog Post .................................. 13
Figure 4: Frequency of Visual Elements in NRC Blog Posts ............................... 14
Figure 5: Sample of Buried NRC Information Graphics on NRC ......................... 14
Figure 6: NRC Engagement Blog Viewership ..................................................... 15
Figure 7: NRC‘s Volume of Users and Social Media Activity Compared with
Nuclear Digital Influencers and Other Government Agencies ............................. 18
Figure 8: TweetLevel Score Comparison ............................................................ 19
Figure 9: Average Number of Tweets Per Day ................................................... 21
Figure 10: Printed Materials Used by NRC OPA to Market and Encourage NRC
Adoption of the Agency‘s Social Media Platforms ............................................... 23
Figure 11: Export of NRC‘s Klout Score Analysis ............................................... 26
Figure 12: NRC Klout Scores Rated Against Peers ............................................ 27
Figure 13: Accessing Approved Social Media Sites inside the NRC Firewall ..... 40
Figure 14: Warning Banner When Accessing Approved Social Media Sites from
the NRC Homepage via the Intranet and Internet ............................................... 40
Figure 15: Accessing Blocked Social Media Social Media Sites Inside the NRC
Firewall ............................................................................................................... 41
Figure 16: NRC Yellow Announcements............................................................. 43


TABLES
Table 1: NRC Performance Against Its Stated Social Media Objectives ............... 2

                                                             ii
Table 2: NRC Social Media Metrics (January 2011-September 2012).................. 4
Table 3: NRC Information Management and Security Policies ........................... 31
Table 4: NRC Computer Security Incidents – FY2011 ........................................ 38
Table 5: Current Social Media Governance Structure and Responsibilities ........ 44




                                             iii
                            Executive Summary
BACKGROUND
On January 21, 2009, President Barack Obama issued a memorandum to the
heads of executive agencies that outlined guidance for use of social media to
promote greater openness in Government.1 In January 2011, the Nuclear
Regulatory Commission (NRC) launched its first official social media site with the
release of the NRC blog.
The timing of the blog launch proved fortuitous as just three months later, the
Fukushima Daiichi nuclear accident in Japan occurred and NRC quickly realized
the benefits of social media for increasing the speed and reach of information
dissemination. The agency should be commended for their effective use of the
blog during and after the accident. In the month following the accident, the blog
attracted 41,561 views. This remains the highest trafficked period across any
NRC social media platform to date.
NRC followed the launch of its blog with the launch of a Twitter account (August
2011), YouTube channel (September 2011), and Flickr presence (January 2012).
These four official channels served as the basis for this evaluation.
This evaluation was conducted between May 2012 and September 2012 by Booz
Allen Hamilton on behalf of the NRC Office of the Inspector General (OIG).
OBJECTIVE
The objective of this independent evaluation was to determine how NRC uses
social media, the effectiveness and efficiency of NRC's use of social media, and
whether there are any privacy and security vulnerabilities associated with its use.
SUMMARY
Over the past two years, NRC has made significant progress with its social
media program. This is particularly noteworthy considering the limited resources
it has dedicated to the effort. It is compliant with Federal social media policies
and regulations, it has developed a strategy and published guidance, and it has
established and trained a cadre of bloggers from across the agency.
The agency has also been very active in generating frequent and informative
content across its four official social media platforms and has promoted these
sites internally through brown bags and postcards as well as externally through
the NRC website and at NRC meetings and events. Furthermore, NRC has
generated respectable subscription and viewership rates across its social media
channels, especially for a small Federal agency with a niche stakeholder
community.



1
    Memorandum of January 21, 2009, ―Transparency and Open Government,‖ Office of the
    Press Secretary, White House.



                                             IV
As a result of these efforts, NRC has met most of its stated social media
objectives including:
       Increasing the distribution speed of agency content.
       Applying NRC branding to social media tools and services.
       Establishing new information distribution channels.
       Enhancing access to agency content through multiple channels.
However, consistent with the fact that NRC is still in its early stages with its social
media program, there remains areas where the agency can enhance its
efficiency and effectiveness. These areas include:
       Integrating social media into existing policies, training, and practices.
       Implementing more social media specific security, training, and awareness
       safeguards.
       Establishing a more prominent voice in the digital realm.
       Maximizing the potential of social media to enhance interaction with
       agency stakeholders and engage them in a dialogue on nuclear issues.
RESULTS IN BRIEF
This report contains three chapters—Social Media Measurement, Social Media
Diagnostic, and Consolidated Recommendations—and a series of appendices
with supporting materials. Presented below are overviews of each chapter along
with the key findings from each.
Chapter One: Social Media Measurement
This chapter provides an assessment of NRC‘s social media performance
against its stated objectives and against measurement best practices in the
public and private sectors.
Key Finding: While NRC has made progress against all of its stated social media
objectives, it currently measures success too narrowly as solely a function of
readership and subscription rates.
Cause: NRC is currently only tracking traditional quantitative social media metrics
that are provided by the tool providers rather than applying advanced
measurement techniques.
Effect: NRC is not currently measuring the true impact or potential of its social
media efforts.
Chapter Two: Social Media Diagnostic
This chapter examines NRC‘s use of social media through five dimensions:
content, reach, influence, security, and integration. Each dimension is described
below.



                                           v
Content—an analysis of content and visuals disseminated via official
NRC social channels.
Key Finding: While NRC generates regular and informative social media
content, it would benefit from consistently creating social media content
that is more transparent, relevant, compelling, and engaging.
Cause: By design, NRC currently applies a one size fits all approach to its
social media content that is predominantly focused solely on the general
public.
Effect: NRC‘s social media content is often generic and uninviting and
does not meet the needs of many key stakeholder groups.
Reach—an assessment of quantitative measures such as the number of
individuals and stakeholder groups reached, the volume and frequency by
which NRC social media content is consumed, shared, and repurposed,
and NRC‘s activity in nuclear conversations online.
Key Finding: While NRC has expanded its reach with four social media
channels, NRC’s social media strategy is overly focused on driving traffic
to its blog at the expense of engaging on Twitter and other platforms
where NRC stakeholders are most active.
Cause: NRC made the decision to channel all social media activity
through its blog to reduce the management burden and made the decision
not to ―follow‖ any individuals or organizations online.
Effect: NRC does not engage on Twitter and does not have an official
presence on Facebook where most of its stakeholders are most active.
Additionally, by making the decision not to ―follow‖ others online, NRC is
perceived by some as insular rather than an active participant in the online
community because it does not ―follow‖ others online.
Influence—an assessment of qualitative measures such as thought
leadership, authority, cause and effect, and prominence around topical
nuclear issues.
Key Finding: NRC’s authority and leadership offline is not adequately
reflected online.
Cause: With the exception of responding to questions on its blog, NRC
does not currently track, monitor, or engage stakeholders online.
Effect: NRC has not yet established the credibility and status as a source
for nuclear information online as it does offline.
Security—an assessment of privacy, security, and records management
risk or vulnerabilities associated with NRC‘s use of social media and the
effectiveness and efficiency of policies and safeguards (e.g., security
assessments, training, and awareness).



                                  vi
      Policy
      Key Finding: While NRC is compliant with Federal social media policies
      and regulations, it should take measures to more effectively integrate
      social media into its information security policy framework.
      Cause: There is an assumption among NRC management that all
      pertinent management directives extend to social media yet it is not
      codified in a document or management directive.
      Effect: There is currently limited ownership, accountability, and
      enforcement authority regarding social media security at NRC.
      Safeguards
      Key Finding: While NRC has taken some measures to reduce social
      media risks and vulnerabilities, its current safeguards should be enhanced
      to adequately protect the agency.
      Cause: NRC has mitigated social media risks by utilizing external third
      party platforms and by conducting an initial security scan prior to the
      launch of its official social media channels. However, no individual or
      office is designated as the responsible party for social media security so
      limited efforts have taken place since the launch of the official channels.
      Effect: NRC currently has no documented or repeatable method to
      monitor, assess, or track social media risks and vulnerabilities.
      Additionally, NRC staff are not regularly educated or reminded about their
      responsibilities when using social media sites.
      Integration—an evaluation of how social media is managed and
      governed, and if it is integrated into other aspects of the agency including
      its policies, practices, and procedures.
      Key Finding: All NRC social media activities are primarily managed and
      operated by one person, which will be difficult to sustain as the social
      media program matures.
      Cause: NRC has dedicated limited financial and personnel resources to
      social media. There is not substantive or regular involvement from offices
      outside of the Office of Public Affairs.
      Effect: Current efforts and resources are not scalable and NRC is not
      seeking ways to integrate social media into the agency.
Chapter Three: Consolidated Recommendations
This chapter provides a consolidated list of recommendations for NRC based on
the findings of the evaluation. Recommendations are grouped by specific
sections of the report: measurement, content, reach, influence, security, and
integration.



                                        vii
Appendices
The appendices highlight the following areas:
      Research, scope, and methodology—details the parameters of the
      research and the approach taken to conduct the evaluation.
      Abbreviation and acronym list—lists the abbreviations and acronyms used
      throughout the report.
      Glossary—defines social media terminology.
      Social media best practices—details social media best practices identified
      through the research.
      List of web tools utilized during the evaluation.
      List of key informant interviews—provides the titles and organizations of
      those who provided input to this evaluation.
      References and source materials—cites all the documents, reports, plans,
      articles, and books which were reviewed for this evaluation.


                         Agency Comments
At an exit conference on December 7, 2012, agency officials provided feedback
on the report‘s findings and recommendations and provided some suggested
editorial changes. Their comments were incorporated as appropriate. The
agency opted not to submit formal comments.




                                       viii
CHAPTER 1: SOCIAL MEDIA MEASUREMENT
Key Finding: While NRC has made progress against all of its stated social
media objectives, it currently measures success too narrowly as solely a function
of readership and subscription rates
Social media measurement should not be approached in the same way as
measuring traditional media. Social media begins with gleaning quantitative data
(readership, viewership, subscription rates) generated by its platform‘s built-in
analytics. It then evolves into a qualitative evaluation of the relationships users
create through these platforms. It is this combination of quantitative and
qualitative analysis that drives an understanding of user behavior and social
media efficacy.
Organizations need to place a greater emphasis on social media‘s return on
engagement, which includes conversations and relationships, vice simply
assessing social media‘s return on investment. NRC‘s social media metrics
should take into consideration user behavior and user experience, not just the
number of users. For example, NRC currently tracks the rate by which blog posts
are commented on and tweeted, but NRC does not assess who is tweeting or
commenting and, more importantly, what kind of digital social networks these
activities touch. Social media is a potent amplification tool for messaging and its
use as a way to magnify NRC‘s reach into new audiences is achievable with a
strong understanding of how these audiences behave and connect with online
networks.
An ideal state of social media measurement and definition of success would be
one that considers NRC‘s influence within the digital nuclear conversation space.

NRC NARROWLY DEFINES SOCIAL MEDIA SUCCESS
NRC narrowly defines social media success as a function of readership and
subscription statistics, while Federal Government and commercial best practices
call for a more holistic approach based on both quantitative and qualitative
measures. Based upon its current definitions of success, NRC is meeting basic
requirements; however, based on industry best practices, NRC would benefit
from tracking additional performance measures.

NRC HAS MADE PROGRESS AGAINST ALL ITS SOCIAL MEDIA
OBJECTIVES
Table 1 below assigns a rating based on data from this evaluation on how well
NRC is meeting its objectives for social media as stated in NRC’s Official
Presence Social Media Business Vision and Scope and Interim Social Media
Guidance. A ―MEETS‖ (green thumbs up) rating designates areas where NRC is
successfully meeting the objective, A ―PARTIALLY MEETS‖ (yellow thumbs
level) rating indicates areas where NRC is meeting some but not all aspects of




                                         1
the objective, and A ―DOES NOT MEET‖ (red thumbs down) rating indicates
areas where NRC is not meeting the objective.

   Table 1: NRC Performance Against Its Stated Social Media Objectives

                 Key:    Meets         Partially Meets              Does Not Meet
NRC Objective             Rating   Progress
Information                        NRC uses the blog to discuss topics of interest and uses Twitter to
Dissemination                      drive traffic to these posts. YouTube and Flickr are also used to
                                   distribute information. In accordance with NRC requirements, NRC‘s
                                   solution provides the ability for internal authorized users to: post
                                   content, add and modify links, add and modify tags, group and sort
                                   content, be notified of changes in content, subscribe to automated
                                   updates to content and search through content.
Information Collection             NRC uses the blog‘s ―Open Forum‖ thread and each blog post‘s
                                   comment section as the primary way of collecting feedback and
                                   responding to requests for information. However, according to
                                   stakeholder interviews, users do not see this as the most effective
                                   way to collect feedback and suggest the use of other platforms such
                                   as Twitter and Discussion Forums to engage users in real time. The
                                   blog platform does allow users to ―like‖ content but not ―dislike‖ or
                                   vote negatively, and the like/dislike ratings have been disabled on
                                   NRC‘s YouTube channel prohibiting users from expressing approval
                                   or disapproval to content on this platform.
Applying NRC Branding              All social media platforms have NRC branding consistently applied.
to Social Media Tools
and Services
New Information                    NRC has successfully launched profiles on four social media platforms
Distribution Channels              as information distributions channels. Current activities meet NRC‘s
                                   requirements on distribution channels, including the ability to: distribute
                                   content on industry accepted internal protocols, display content
                                   properly on common desktop and mobile browsers, and deliver
                                   content on RSS and micro-blogging platforms like Twitter.
Administrative                     In accordance with NRC‘s requirements on administrative
Requirements                       requirements, NRC‘s current solution provides the ability to: restrict
                                   access to manage, administer and modify social media and user
                                   comments to authorized users only, minimize bandwidth in
                                   distributing content across social media, view detailed summary
                                   reports on user activity and generate activity logs as needed.
Increased Speed of                 NRC uses the Blog and Twitter to alert the public of new content
Distribution of Agency             posted on the main website and major reports and documents such
Content                            as the 2012-2013 Information Digest.
Enhanced Access to                 The adoption of the blog, YouTube, Twitter, and Flickr served to
Agency Content Through             provide external stakeholders with enhanced access to agency
Multiple Channels                  content via multiple channels.
Enhanced Interaction               While NRC does engage a small segment of the online nuclear
with Agency                        community through its blog, all communications via social media
Stakeholders                       channels is mediated and responded to via the blog. NRC does not
                                   interact with stakeholders on any of its other platforms nor does it
                                   officially ―follow‖ others online. External interviews indicate that users
                                   would like to be able to engage with NRC on platforms other than the
                                   blog.
Increased Scale and                NRC does not actively engage digital influencers identified through
Reach Across All                   this study but does engage users who submit comments and
Potential Stakeholders             questions via the blog. NRC identifies all stakeholders as a uniform
                                   ―general public‖ and does not segment specific stakeholder groups.
                                   Current content reaches users interested in general information, but


                                              2
NRC Objective              Rating   Progress
                                    there is room for improvement in how NRC generates content,
                                    defines its target audiences, and maximizes network reach.
Effectiveness in                    Effectiveness of NRC‘s outreach and message delivery is limited by
Outreach and Delivery of            emphasis on the blog as the primary platform for message delivery.
NRC‟s Message
Engagement of                       Current engagement is limited to forum comment responses leading
Stakeholders Using                  to minimal active engagement of stakeholders and the public. Also,
Social Media                        by not following Twitter users and taking greater advantage of Twitter
                                    as an engagement tool, NRC is not engaging where users are most
                                    active.




PLATFORM METRICS AND ANALYSIS
Figure 1 highlights the performance of NRC‘s social media platforms and the
triggers that generated high activity. Further analysis follows the chart and
provides deeper insight into these metrics.




 Figure 1: Timeline of Social Media Activity and Viewership Across NRC‟s
                          Social Media Platforms
       The blog had a 43 percent drop in comparable total views from January to
       September 2011 compared with January to September 2012. There was
       an average of 5- to 10-percent drop on daily views from 2011-2012 and a
       slight increase variance in average daily viewership from January to
       September 2012.
       NRC experienced a large spike in blog activity during the March 2011
       Fukushima incident with 41,561 views logged during that month. Prior to
       March 2011, the blog had 18,980 views in February 2011, which dropped
       to 11,014 views in April. Thereafter, views remained steady at around
       10,000 until August 30, 2012.


                                               3
         Table 2: NRC Social Media Metrics (January 2011-September 2012)

                      Blog                           Twitter            YouTube          Flickr
 Activity             238 posts                      603 tweets         55 videos        1060 images

 Views                238,067 views since            n/a                18,390 views     90,206
                      launch                                            (350-400 daily   views
                      76,016 views in 2012                              average)

 Comments             1,350 approved                 (not applicable)   (directed to     (directed to
                      comments                                          blog)            blog)

 Shares               1,054 total shares             135 retweets       2-3 embeds in    (not
                      Average comment rate                              Facebook and     applicable)
                      per post: less than 10                            other personal
                                                                        sites on
                      Average post likes: less                          average for
                      than 5                                            most videos
                      Average Facebook
                      shares: less than 5
                      Average Twitter
                      retweets: less than 5
                      Blog content is shared
                      primarily via:
                      Facebook: 479
                      Twitter: 376

 Followers            643 Followers                  2,430 Followers    189              (not
                                                                        Subscribers      applicable)

 Following            0                              0                  0                0




FURTHER PLATFORM ANALYSIS
NRC Blog
         LOW TO MEDIUM BLOG VISITS: According to www.trafficestimate.com,
         which provides estimates on web traffic, over a 30 day comparative
         period, NRC‘s blog received 16,500 visits. When compared to digital
         influencers in the nuclear space this figure is relatively low. For example,
         in the same 30 day period, NextBigFuture.com received 298,000 visits
         and the blog hosted by the Union of Concerned Scientists received
         172,300 visits. When compared to blogs hosted by other federal
         regulatory agencies, the difference is more apparent. In the same 30 day
         period, the U.S. Environmental Protection Agency (EPA) ―It‘s Our
         Environment‖ blog received 2,596,600 visits, and the U.S. Food and Drug
         Administration blog received 2,820,000 visits.




                                                 4
         LOW POST ENGAGEMENT: The NRC blog does not boast high virality2
         in that most posts are read but not engaged or shared. Furthermore,
         analysis of frequent user comments indicates that most of the activity is
         generated by a recurring set of users, which suggests limited increase in
         the participation of new, unique users.
         NRC IS NOT CAPITALIZING ON WHERE USERS ARE COMING FROM:
         Twitter and Facebook both rank in the top 10 websites and platforms that
         direct users to the NRC blog. The rest of NRC‘s blog referrals are from
         prominent blogs owned by recognized digital influencers (social media
         users who demonstrate a strong, active, and popular presence online as
         well as peer-approved thought leadership in a given topic) as well as
         directs from internal NRC staff (which suggests that awareness-building
         campaigns within the organization are working to keep NRC staff aware of
         blog posts).
         The NRC blog does not direct its focus to Twitter and Facebook. While
         the NRC is currently reviewing its use of Facebook, it does have a Twitter
         profile and the data referenced above suggests that Twitter has the
         potential to augment viewership. Interestingly, in terms of sites that refer
         users to the NRC blog, Flickr ranks 15th, followed by LinkedIn at 20th,
         suggesting a strong but untapped potential for these sites to drive user
         traffic and activity.


Twitter
NRC‘s Twitter following is steadily increasing, although it is not yet at the level
held by other influencers in the nuclear space (e.g., the Nuclear Energy Institute
(NEI) boasts 6,774 followers compared to NRC‘s current following of 2,430).
However, NRC‘s followers do include several of these digital influencers,3
indicating high potential for network amplification.
NRC does not follow Twitter users despite the fact that many of its regulatory
agency peers (e.g., the Federal Drug Administration [FDA], the Federal Aviation
Administration [FAA], and the EPA) follow other agencies and individual users.
Interviews with the NRC‘s Office of the General Counsel suggest that there are
no internal legal restrictions to amending NRC‘s current Twitter guidance to
accommodate expanded activity (following and direct messaging Twitter users)
as needed.
         Benchmarked against nuclear influencers who have higher levels of
         Twitter frequency and activity, it is clear that NRC does not fully engage



2
    Virality is contingent on how ―viral‖ or frequently shared a piece of content is across social
    media.
3
    For a list of sample digital influencers identified by this study, see report Appendix IV.


                                                   5
         users through Twitter despite this platform being the one on which nuclear
         conversations are the most viral and active.
         NRC‘s minimal activity of only an average of 135 retweets4 on Twitter
         contributes to low shares of NRC‘s digital content. However, these
         retweets do have the potential to reach hundreds of potential new readers
         depending on the Twitter user‘s number of followers.
Flickr
         The viewership rate suggests that there is great potential for NRC to
         devote resources and attention to bolstering its Flickr content.
         Stakeholder interviews indicate that Flickr is a primary source for images
         for journalists and news outlets. One producer from Cable News Network
         (CNN) suggested that what was currently offered on Flickr does not
         compel him to return and urged NRC to provide more content that did not
         involve people in a conference room or of the chairperson speaking from a
         podium.
YouTube
         Users are embedding videos on social networks and other Web sites, but
         at a low and inconsistent frequency.
         The highest-viewed content tends to be original content, such as the ―3
         Minutes With‖ series (a public-facing video series produced by NRC‘s
         social media leads that features NRC staff providing insight into their jobs
         and role in the nuclear regulatory process), followed by videos related to
         top news incidents: 30 percent of traffic is driven from mobile devices,
         following a growing national (and global) trend in media viewership
         through smartphones.
NRC Would Increase its relevance in the Digital Space by Fully
Understanding How Nuclear-Content Consumers Behave Online
A major risk to not regularly monitoring trend data beyond simple viewership
rates is that NRC won‘t have an understanding of its users and, more
importantly, may fall out of relevance in the digital space. This is a key concern
because the effectiveness of NRC‘s presence on social media is tied heavily to
NRC‘s ability to educate, inform, and encourage collaboration and public
participation. This ability is diluted if NRC is not operating where users are most
active.
Substantial benefits to developing a greater understanding of user behavior on
NRC‘s social media platforms include the ability to (a) better track NRC‘s
influence and relevance amongst these users, and (b) better target specific users
for outreach when limited resources in staffing or time prohibit NRC from
launching a larger social media campaign. NRC does not currently have the


4
    A ―retweet‖ is a re-posting of another Twitter user‘s tweet.


                                                   6
resource capacity within its social media program to reach out to hundreds of
bloggers or Twitter followers. With user research, NRC can focus its current
resources on digital influencers with high amplification potential based on their
thought leadership and content popularity within the nuclear digital space.
Furthermore, broadening metric evaluations beyond what is happening strictly on
NRC social media sites to activities that are happening within the nuclear
community (e.g., by examining influence scores and popular content in other
areas of the nuclear social media sphere to assess what kinds of content are
prompting conversation at a given moment) would empower NRC to be a more
active part of the digital nuclear conversation. In working to build influence within
the nuclear community, NRC is also better able to meet its Open Government
directives. It would therefore be advisable for NRC develop and implement a
process to monitor the organization‘s social media influence scores to determine
if it is viewed as an authoritative source of nuclear information.
Recommendations:
We recommend that the NRC Office of Public Affairs (OPA):
   1. Broaden NRC‘s definition of success beyond quantitative viewership rates
      to include qualitative evaluations of digital influence, thought leadership
      within the nuclear social media discussion, and strength of relationships
      with prominent influencers.
   2. Develop and implement a process to monitor user activity on NRC‘s
      social media platforms after content posts to evaluate content virality and
      network distribution.
   3. Develop a baseline for performance by benchmarking NRC‘s social
      media metrics (i.e., viewership, subscriptions, shares, and influence)
      against activity within the digital nuclear industry community.




                                          7
 CHAPTER 2: SOCIAL MEDIA DIAGNOSTIC
 CONTENT
 Key Finding: While NRC generates regular and informative social media
 content, it would benefit from consistently creating social media content that is
 more transparent, relevant, compelling, and engaging
 Content is king. Nowhere is this more important than on the information-
 saturated world of social media. Consider for example, that on WordPress alone,
 NRC shares its blog space with over 55 million other content owners. NRC
 videos compete with 120 million others on YouTube. NRC‘s Flickr photos
 perform against those uploaded by 51 million account holders. And, NRC‘s
 Twitter posts stream on feeds and devices alongside 400 million tweets per
 second.5 While NRC focuses specifically on nuclear issues and has a dedicated
 readership on their social media sites, it is still important to consider the volume
 of content that all Internet users must sift through to get to what they are looking
 for.
 Transparency
 By posting all blog posts under “Moderator” and not addressing why
 certain comments are not posted, NRC is perceived by some as being non-
                                     transparent
GOOGLE PUBLIC FORUM POSTS:
―Yeah, how about a real name of a person               In social media, transparency means
who authors the blog post instead of                   "real" people behind blog posts and other
‗moderator‘! Who is this ‗moderator‘ person            social profiles who can develop an
anyway? ‗Moderator‘ is a copout for                    authentic voice with readers and
accountability to your words.‖                         followers. Transparency is generally
―Like if a comment is rejected, how about a            perceived as one of the primary rules of
reason why it was rejected.‖                           engagement in social media. This is
―You submit a comment...the comment takes              important when Government uses social
forever for it to get on the site if at all. It is not media because it is often pursued as a
like the typical media where your comment is           platform for making bureaucracy more
added without censure or delay.‖
                                                       human and accessible. Hence,
  establishing transparency is a prelude to securing the public‘s trust that not only
  is the information presented credible and accurate, but also it is presented by a
  responsive human being empathetic to public concerns.
 Admirably, NRC‘s content-gathering workflow (where all posts, regardless of
 departmental origin or author, get filtered through a single editor) provides NRC‘s
 blog with a strong level of consistency in voice, tone, and personality. This
 contributes to the perception of credibility discussed in the ―Influence‖ section,
 while also contributing to a measure of authenticity with regards to NRC‘s online


 5
     All social media statistics reflect current user rates published by each platform on their websites
       as of September, 2012.


                                                     8
presence as a whole. However, it is important to note that NRC operates in a
social media environment where nuclear power is largely seen as negative in
conversations and posts across all major social media platforms and networks.
This means that actions that are perceived as non-transparent by the digital
public are amplified because they tend to reinforce persistently negative public
perceptions around the nuclear topic.
Figure 2 demonstrates the results of a Radian6-driven6 review of over 500,000
social media posts (tweets, Facebook ―likes,‖ mainstream news comments,
YouTube content, and comments and other social media activity) from June 2012
to August 2012. Negative (solid colors) and positive (stripes) areas offer a
snapshot of the conversational tone in these posts. The fact that there are more
solids than stripes indicates that the overall conversational tone around nuclear
topics was negative. Furthermore, within these negative topics, Fukushima
Daiichi dominated online conversations (and digital activity of Fukushima is
overwhelmingly negative). These do not necessarily reflect public sentiment
toward NRC itself, only of these topics. NRC perception, however, is tied to this
negative sentiment because conversations around NRC are rarely divorced from
conversations around nuclear in general.




                                        Data Source: Radian6


                    Figure 2: Public Perceptions of Nuclear Topics

6
    Radian6 is a web-based listening platform designed to help companies and agencies know
    what online conversation is critical and what is being said about them on social media.


                                               9
According to public feedback garnered through external stakeholder interviews
and the results of the public forum on NRC‘s social media, users negatively view
the use of ―Moderator‖ rather than the name of the NRC staffer uploading content
when attributing blog posts. This view continues through comment responses,
where user comments and questions are responded to by a ―Moderator.‖ This
tends to imply or communicate non-transparency and inauthenticity with social
media users who tend to prefer names over non-descriptors. NRC does attribute
post authors; however, their names appear below the post and interviews. Blog
readers indicate that often they do not scroll down to the bottom of the post to
see or find the author‘s name. This issue can be addressed easily by moving the
author‘s name to the top of the blog post.
Another area of concern is the visibility of NRC‘s comment policy. It is laudable
that NRC‘s comment policy is written clearly in plain language and accessible
under the blog‘s about section. Furthermore, NRC deserves credit for allowing a
majority of user comments, positive and negative, as this reinforces perceptions
of transparency and credibility. However, some users indicated that the
comment policy is difficult to access and others felt that comments that are
rejected or not immediately published deserve an NRC response as to why they
were rejected or not immediately published.
Relevance
NRC’s “one size-fits-all” social media content is not providing sufficient
technical information to key stakeholders
                                             Content should be driven by the question
FEEDBACK ON NRC CONTENT FROM
DIGITAL NUCLEAR INFLUENCERS
                                             ―how is this valuable and relevant to our
                                             readers?‖ to provide information and
  ―NRC should do a post about how a          insights that users want. Furthermore,
  nuclear power plant works with good        arriving at an understanding of what criteria
  information graphics that I can share
  with my readers.‖                          must be followed to make content relevant
  Atomic Power Review                        cannot be a one-time endeavor; rather, it is
                                             necessary for NRC to constantly monitor
  ―In general their posts are good for a     and glean insights from its users to gauge
  general audience but then they have
  to realize that they have an audience      the ever-shifting nature of content
  that is very technical for which they      relevance. While NRC has done an
  can‘t dumb down content.‖                  admirable job in opening up its blog to the
  NEI Nuclear Notes                          general public and in creating spaces for
  ―As part of the press, I have to be able   public discussion, such as the ―Open
  to quickly communicate a lot of            Forum‖ post where users can discuss
  technical information into something       topics freely, this strategy suffers from a
  our readers will grasp. But it helps if    limited understanding of NRC‘s social
  NRC had strong info graphics or a
                                             media user base.
  section that provided a breakdown of
  technical info so I can understand the     To understand what content NRC users
  translation from its source.‖
  Huffington Post                            want and need, NRC must first understand
                                             who these users are. According to
                                             interviews with staff from NRC‘s OPA, NRC

                                               10
 has purposefully developed content aimed at the general public appropriate to
 the social media program‘s early stage. Hence, NRC creates content throughout
 its social media platforms that is written in a generic tone intended to
 communicate to as broad an audience as possible. Until the media platform
 reaches the next level of maturity, NRC has not decided to segment its audience
 beyond such a broad definition. This is a reasonable strategy for reaching the
 vast majority of citizens that the NRC needs to educate on the agency‘s
 regulatory role and activity within the nuclear space. However, interviews with
 members of the online nuclear power community revealed that NRC‘s social
 media is failing to provide the ―deeper dive‖ into important nuclear issues.
 Specifically, there is an interest for content that speaks beyond the general
 public. By not addressing the needs of key stakeholder groups, NRC is not able
 to generate content that is relevant to audiences that have the highest potential
 to magnify NRC‘s reach and augment NRC‘s influence.
 Further analysis of blog posts reveals a tagging (―labeling‖) system of only seven
 topical tags (―Emergency Preparedness,‖ ―General,‖ ―New Reactors,‖ ―Nuclear
 Materials,‖ ―Nuclear Security,‖ ―Operating Reactors,‖ and ―Radioactive Waste‖),
 one ―Open Forum‖ tag, and two tags that capture comments on other social
 media platforms that have comments disables (Flickr and YouTube). This limited
 tagging system does not demonstrate the full breadth and scope of the content
 and limits content discovery and search. For example, posts about the San
 Onofre Nuclear Generating Station in California should be labeled ―San Onofre,‖
 ―California,‖ ―Region 4‖ in addition to the current labels of ―Operating Reactors‖
 and ―nuclear.‖ Tags should also reflect the main subject matter in the post. For
 example, there are several posts about flooding near facilities that are tagged
 ―Emergency Preparedness and Response‖ but not the simple word ―flooding.‖
 Expanding the tagging taxonomy to be more context-driven would connect
 similar posts together under a more intuitive and user-friendly system. Users, for
 example, would be more likely to search for posts related to threats to reactors
 caused by ―flooding‖ and ―weather‖ with those tags rather than higher-level
 concepts like ―Emergency Preparedness.‖
 Compelling
 While NRC’s social media content is frequent and informative, it lacks rich
 media elements and unique content that would attract additional readers
 and encourage them to share the information
                                                 Authenticity and relevance help maintain
―NRC‘s materials are very basic and not          credibility and trust, while attraction (or
very viral. Other agencies do a better job of
including information graphics, photos,
                                                 how interesting and unique a piece of
even clickable links. There‘s no ‗extra.‘ It‘s   content is) contributes to a platform‘s
not influential.‖                                ―virality‖ or ―shareability.‖ In other words,
Managing Editor, Huffington Post                 posts that attract and sustain a reader‘s
                                                 attention stand a greater chance of being
                                                 shared across social networks.



                                                  11
Social media is a highly visual medium. According to a recent evaluation of the
influence of images on an organization‘s public perception and online
prominence, content featuring compelling images averages 94% more views
than those without and posts with photos have far greater levels of social
engagement than posts without.7
A cursory glance of the most viral content on the Internet demonstrates that
users share content that is interesting and visual. A way to do this is by delivering
content that contains photos, videos, and graphics that compels readers to
engage the text further. However, a consistent observation across external
stakeholder feedback was that overall NRC content—from blog posts to
YouTube videos to Flickr slideshows—lacked visual elements, such as rich
information graphics and interesting photos that would attract readers to engage
the content further. The stories in NRC blog posts, for example, while short, are
driven entirely by text rather than a combination of text and images. One of our
interview subjects, a producer on a prominent news network, professed
frustration that the map embedded on the post ―NRC Watching Isaac‖ was not
interactive.
For example, the screenshot in Figure 3 shows what it missing in the post ―NRC
Watching Isaac‖ and how it can be improved. The map was not clickable and
interactive, textual references to data or events were not hyperlinked, and
updates were not bolded or otherwise highlighted to make the change more
apparent. In this example alone, NRC missed an opportunity to tell a richer, more
engaging story that could have prompted additional shares on Facebook and
Twitter.




7
    In September 2012, MDG Advertising, a prominent marketing firm, created an information
    graphic detailing the importance of images in driving viewership and platform adoption online.
    View the full article on http://www.mdgadvertising.com/blog/its-all-about-the-images-
    infographic.


                                                 12
             Figure 3: Screenshot of “NRC Watching Isaac” Blog Post

                                         Source: NRC Blog

A spreadsheet tracking all posts on the NRC‘s blog dating back to early 2011
reveals a lack of rich media. As Figure 4 demonstrates, the overwhelming
majority (nearly 75%) of NRC‘s blog posts feature no rich media content and
those that do include only clip-art imagery or basic stock photographs. While the
use of clip-art8 and stock images is convenient, it is commonplace and does not
add to the unique value proposition that NRC content needs to consistently
promote. The use of clip-art in particular can make NRC appear unsophisticated,
particularly when compared to other organizations that use original photos and
graphics.




8
    Clip art refers to pre-drawn pictures, icons and illustrations often provided with word-
    processing and drawing software that users employ to illustrate text.


                                                  13
                      Source: Booz Allen analysis of 180 blog posts.

         Figure 4: Frequency of Visual Elements in NRC Blog Posts
Stakeholder interviews indicated that users have a mixed reaction to NRC‘s
YouTube videos. Media interview subjects said NRC‘s video content suffers
from repetition, low production quality, and lack of excitement and visual interest.
NRC‘s YouTube videos are largely composed of snippets of commission
hearings that currently do not generate high levels of interest from social media
users.
NRC hosts rich information graphics on Flickr, yet they are hard to access, and
not included in blog posts (see Figure 5).
The fact that these information graphics—
as well as the mechanisms for creating
them—already exist means that there is
no need for resource augmentation. NRC
just needs to embed Flickr slideshows
into its blog.
Another observation gleaned from
interviews was that NRC misses
opportunities to leverage its access to
nuclear facilities and other areas that
would generate interest within the online
nuclear community and the general                            Source: NRC Flickr site.
public. A CNN producer compared
NRC‘s unique access to National                    Figure 5: Sample of Buried NRC
Aeronautics and Space Administration                Information Graphics on NRC
(NASA): ―We as everyday people can‘t go



                                            14
to Mars, but NASA can. Similarly, NRC has access to places people interested in
nuclear can only dream of accessing.‖
Figure 6 tracks the volume of users that viewed the NRC blog from its inception
in January 2011 to September, 2012. Seventy-five percent of blog posts
generated 300 views or less, 17% generated between 300 and 600 views, with
the remaining 8% generating more than 600 views. Therefore a majority of posts
generate a modest number of views (within the 75% range, most posts generate
less than 100 views).




                            Data Source: WordPress

              Figure 6: NRC Engagement Blog Viewership
Engagement
NRC does not consistently create content that prompts conversation or
solicits feedback
Content engagement is the culmination of building trust through authenticity,
credibility through relevance, and viewership through attraction. Once NRC has
enticed viewers to peruse its content, it then must sustain those readers‘ interest
and, most importantly, prompt them to engage in conversation and share across
personal networks. Social media is a responsive, two-way dialogue between


                                         15
users and content generators. This powerful feedback mechanism is one way
NRC can ensure that content posted is content that will be used and shared and
addresses the question, ―are we encouraging dialogue?‖
However, research on NRC blog activity demonstrates that this is currently not
the case. From September 2011 to September 2012, viewership of blog posts
remained consistently low (from an average of 10-20 views on the lowest end to
an average of 250 views on the mid-range). NRC does boast spikes in activity
with some posts garnering as high as 1,700 views. It should be noted that the
most viewed posts are a post on ―Transcripts Providing a Unique Glimpse of the
Agency‖ and the ―Open Forum‖ post (which allows readers to submit comments
and questions for open dialogue) indicating an interest from readers in
transparency that reinforces the aforementioned finding on authenticity.
Articles on NRC‘s blog are posted with admirable frequency (an average of four
per week), reflect a diversity of regional sources and departmental perspectives,
and are edited to speak in a consistent tone and voice. However, social media
activity such as user commentary, Facebook ―likes,‖ and Twitter ―re-tweets,‖
remains low (an average of 2 comments and less than 10 examples of sharing
NRC content on Facebook and Twitter) when compared to comparable sites in
the nuclear space. When the activity is further analyzed, it reveals that the posts
that generated the highest volume of social media sharing were related directly to
Fukushima or were otherwise related to disasters and incidents. There is little
follow-up after these spikes in activity and a consistent drop in activity due to a
lack of sustained engagement (creating content that prompts shares or responds
immediately to comments and recurring public concerns).
NRC would benefit from sustaining user engagement following major events. For
example, there was a significant spike in activity during Fukushima (41,561 views
in March 2011), but that activity dropped significantly shortly thereafter (11,014
views in April and 9,995 in May). Analyzing the content uploaded in that
timeframe reveals that NRC did not sustain its content offerings around the
incident or topics related to it and thus the readership of its blog dropped off.
Presently, NRC baseline rates remain steady with occasional spikes. Activity
level should remain relatively constant with a steady rise; should a fall occur,
adjustments should be made to reverse the trend.
By keeping content interesting, evolving, and focusing on the needs of its users,
NRC will be better positioned to strengthen its credibility within the nuclear
community online, grow readership, increase content shares across social
networks, and educate the public about NRC‘s mission.




                                        16
Recommendations:
We recommend that the OPA:
   4. Generate content periodically that provides unique access to nuclear
      facilities and nuclear resources by providing photos and information.
   5. Make article authors more prominent by including the blog article byline at
      the top of each post (rather than the bottom) so readers are immediately
      aware of who wrote the articles.
   6. Develop and implement a process for creating more visibility into NRC‘s
      commenting policy and periodically respond to rejected posts to build
      trust and transparency.
   7. Rather than only soliciting and creating content around topics NRC
      departments are interested in, solicit input from readers and bloggers on
      a regular basis regarding content they would be most interested in (and at
      what level of technicality) and create content based on their input.
   8. Develop and implement a process for expanding tagging taxonomy
      beyond ―nuclear‖ so content is labeled by audience or type of information.
   9. Develop and implement a process for the use of rich media including
      videos, photos, charts, interactive graphs, and info-graphics in social
      media posts.
   10. Develop and implement a process for adding visual interest and
       facilitating access to existing blog posts. For example, embed YouTube
       videos and Flickr slideshows within blog posts.
   11. Insert links in YouTube videos so videos are clickable and link back to
       www.nrc.gov, the blog, or other NRC platforms.
   12. Conduct periodic content analysis to glean which types of posts generate
       the most activity and replicate blog elements that have proven successful.
   13. Develop and implement a process for expanding photo offerings on Flickr
       beyond bar graphs or the NRC Chairman.

REACH
Social Network
Key Finding: While NRC has expanded its reach with four social media
channels, NRC’s social media strategy is overly focused on driving traffic
to its blog at the expense of engaging on Twitter and other platforms where
NRC stakeholders are most active
Interviews with internal NRC staff involved with social media reveal that NRC
primarily uses all its official social media channels, such as Twitter, to drive
followers to NRC‘s blog. NRC prefers to use the blog comment section on
NRC‘s WordPress blog to manage requests, questions, and comments rather


                                         17
than respond to users queries directly on Twitter. Additionally, feedback from the
Google Form9 confirmed NRC‘s use of Twitter as merely a means to push
content rather than engage external stakeholders. However, according to the
evaluation team‘s analysis via analytics software such as Radian6, Klout, and
other software, it is clear that NRC is missing an opportunity to connect with
users on Twitter and Facebook because these social media sites feature the
greatest numbers of social media users in the nuclear space.
Figure 7 shows NRC‘s volume of social media activity (defined by both user base
and content sharing) compared with nuclear digital influencers (author of the blog
―Energy Education Project‖ Meredith Angwin, the American Nuclear Society
(ANS), the NEI, Friends of the Earth (FOE) and the Union of Concerned
Scientists) and other Government agencies (the Federal Communications
Commission [FCC], the EPA, and the Department of Energy [DOE]). The ―balls‖
are organized from left to right by Klout score with NRC falling far to the left. The
―ball‖ size reflects total user volume, driven in large part by Twitter, YouTube, and
Facebook subscriptions. Organizations such as FOE and the NEI boast large
followings in each of these platforms whereas NRC, which focuses a majority of
its social media efforts on its blog at the expense of strengthening the
organization‘s presence on Twitter and YouTube, has a much smaller following.




Figure 7: NRC‟s Volume of Users and Social Media Activity Compared with
       Nuclear Digital Influencers and Other Government Agencies
By not taking full advantage of other social media platforms, NRC is missing a
large audience segment that is far more active on Twitter, YouTube, and



9
    To collect public feedback, the evaluation team developed a form on Google‘s social platform
    then distributed this link across the social network of nuclear digital influencers. To learn more,
    refer to Appendix I of this report.

                                                  18
Facebook. In fact, according to NRC‘s tracking data, Twitter refers more readers
to NRC‘s blog than any other external website outside of WordPress.
Analysis via TweetLevel
NRC‘s TweetLevel score: 44.5 (cumulative of scores below)10
NRC‘s Popularity Score: This number is solely based on how many followers
NRC has. Many Twitter measurement tools rank Twitter users only according to
this metric; however, just because a user is popular does not mean they are
influential. To increase popularity, NRC will need to follow more people, post
regular and interesting content, time posts to peak times, follow trends, and add
hashtags11 to make it easier for people to find NRC‘s tweets. Figure 8 below
compares NRC‘s scores against bloggers (―blog‖) Margaret Harding (Harding)
and Will Davis (Davis), pro-nuclear organizations (―pro‖) ANS, NEI, anti-nuclear
organization (―anti‖) FOE, and Government agencies (―gov‖) the FDA, the EPA,
and NASA.




                                     Data Source: Tweetlevel.
                        Figure 8: TweetLevel Score Comparison




10
     TweetLevel measures a user‘s importance or influence on Twitter based on popularity (how
     many people follow the user), engagement (how often a user participated in a community),
     and trust (whether users believe what is said on your tweets).
11
     A hash tag is a tag embedded in a message posted on the Twitter microblogging service,
     consisting of a word within the message prefixed with a hash sign.


                                                19
NRC‘s Engagement Score: NRC‘s engagement is low because of the way NRC
interacts with the online community. Twitter is not just about broadcasting
thoughts or pushing NRC‘s latest post—it is about conversations. NRC would
benefit from knowing the people who follow the agency and contribute to nuclear
discussions in order to demonstrate its active engagement it the nuclear
community online.
NRC‘s Trust Score: Having a high trust score is considered by many to be more
important than any other category. Trust can be measured by the number of
times someone is happy to associate what you have said through them—in other
words, how often NRC is retweeted. Creating more interesting and informative
posts that give followers a reason to retweet what NRC has said will increase
NRC‘s trust score.
Twitter Frequency
NRC ranks low in Twitter post frequency with an average score of 1.3 compared
with FOE (3.4), NEI (6.3), and other regulatory agencies like EPA (2.9).12 Twitter
frequency is an important metric for NRC because Twitter usage is prevalent
within the online nuclear community and particularly within the nuclear press
who, according to external stakeholder interviews, rely heavily on Twitter for
news and to gauge conversational trends within the nuclear community.




12
     Source: www.hashbang.com.


                                        20
                                      Data Source: Hashbang.
                     Figure 9: Average Number of Tweets Per Day
NRC Would Benefit from Focusing Greater Attention to Twitter because It
Amplifies NRC‟s Message to a Larger Network
Twitter currently ranks as one of the web‘s 10 most-visited websites and it widely
considered the preeminent micro blogging platform with over 140 million online
users. 13 Twitter users who best use this platform to their advantage do so by
participating in conversations, engaging their nuanced communities of interest,
and fostering dialogue via two-way communication. By responding to comments
and feedback in real time, NRC will see a rise in followers and readers on both
Twitter and the NRC blog. Asking open-ended questions (as has been a popular
exercise on NRC‘s blog) is also critical in championing online stakeholders and
ensuring NRC maintains a direct and genuine tone with its online community.
Rather than simply using Twitter as a means to push blog entries or press
releases, NRC can demonstrate leadership and know-how regarding nuclear
safety issues to its online audience.




13
     http://www.alexa.com/siteinfo/twitter.com.


                                                  21
Audience Segmentation
By focusing predominantly on the general public, NRC is not fully
addressing the needs and concerns of its broader stakeholder community
NRC considers the end-user or consumer of its social media efforts to be the
general public. However, research conducted for this evaluation revealed that
NRC‘s typical social media end-user is technically savvy, highly knowledgeable
on a variety of nuclear topics, and passionate about nuclear safety. Currently,
NRC does not currently segment its online audience and therefore does not
consistently provide relevant content to key stakeholder groups such as
licensees, communities surrounding nuclear power plants, and users of nuclear
materials such as the academic, science, and medical communities.
Identifying Audiences and Tailoring Content Will Help NRC Build a Larger,
More Informed Social Media Audience
Taking a comprehensive look at NRC‘s varied online audience will allow NRC to
build its following and better communicate with users via social media. By
determining the needs, experiences, knowledge, and characteristics of NRC‘s
social media subscriber base, NRC will begin to foster a more educated and
engaged community of interest. Once specific audience groups are identified,
targeted messaging and group-specific content will make it possible for NRC to
reach beyond ―the general public‖ and get other key stakeholders the information
they desire.
NRC Can Maximize Social Media Outreach
By studying the people who matter to NRC, and the people who matter to NRC‘s
readers, NRC‘s social media strategies could benefit from a new level of
constituent awareness that may enhance the way the agency is perceived online.
With limited resources, NRC can maximize outreach efforts to a small but
influential group of social media influencers.
Awareness
NRC has an active and dedicated readership, but it is small and many of
NRC’s internal and external stakeholders are not fully aware of NRC’s
social media sites
External audiences are not fully aware of NRC‟s social media platforms
Interviews conducted with members of the online nuclear power community as
well as analysis of platform viewership rates indicate that while NRC has
attracted a respectable and modest volume of readers, the majority of
engagement activity (i.e., comments on the blog) is conducted by a small and
recurring group of users. Furthermore, most of these users‘ activities are
isolated to one platform (the blog) and when asked about other NRC social
media platforms, many individuals indicated that they were not aware that these
other platforms existed.



                                       22
There is a lack of agencywide awareness and/or adoption of the full
breadth of NRC‟s social media program
As shown in Figure 10, NRC OPA social media staff have taken steps towards
increasing awareness of social media efforts within the agency. The social
media lead has conducted brown bags, created and distributed brochures,
postcards and posters, and encouraged regional public affairs staff to distribute
materials in public meetings. However, brown bags are conducted by request
only and inclusion of social media information on NRC communications and
marketing is not consistent. For example, social media did not appear in the
following NRC information materials:
      The NRC Guideline for Conducting Public Meetings
      Public Involvement in the Nuclear Regulatory Process
      The Citizen’s Guide to U.S. NRC Information
      Independent Regulator of Nuclear Safety




                                  Source: NRC OPA.

 Figure 10: Printed Materials Used by NRC OPA to Market and Encourage
          NRC Adoption of the Agency‟s Social Media Platforms
This could be because these materials were developed and published prior to the
advent of social media at NRC. In order to be sensitive to budgetary constraints
associated with revising and reprinting existing materials, it is recommended that
if and when current materials are slated to be updated, NRC should include
information on official social media channels if appropriate.
Inconsistent awareness contributes to low internal adoption and participation in
NRC social media. Even when aware, however, several internal stakeholders
confessed ambivalence to social media adoption. A majority of internal


                                         23
stakeholders interviewed neither subscribe nor participate in NRC social media,
nor do they promote its use to their external contacts.
NRC Can Reach More Stakeholders by Connecting with Digital Influencers
Who Are Better Able to Amplify NRC‟s Reach Through Their Robust
Networks
Use of social media as both a broadcast tool and an engagement platform is not
about reaching people just because they are connected, but because they serve
a role in the community. To increase its visibility within high-impact networks,
NRC should learn more about social landscapes and the people who affect the
social media conversations they are a part of. As important as it is to understand
NRC‘s audience, it is also important to understand the value of relationships and
how best to cultivate them. NRC‘s goal should not be increasing the quantity of
its followers, but the quality of consumers of NRC‘s digital content as defined by
their influence and peer network. According to David Armano, Executive Vice
President, Global Innovation & Integration at Edelman Digital:
          The size of networks to cause effect is irrelevant. The idea that
          only large networks can cause effect is a myth. You must
          understand how influence spreads. Now, you can connect with
          people based on common interests through the influential voices
          who are frequently the hub of important conversations.14
Recommendations:
We recommend that the OPA:
     14. Allow and respond to user comments on NRC YouTube and Flickr sites
         rather than directing them to the NRC blog.
     15. Develop and implement a process for identifying digital influencers and
         monitoring activity by maintaining a matrix of influencers according to
         shifting scores and activity.
     16. Develop and implement a process for determining what information each
         user group needs and regularly provide that information on NRC‘s blog
         and in NRC‘s Twitter feed.
     17. Engage in active outreach to bloggers and other social media followers by
         providing special opportunities to connect with NRC staff, such as tailored
         content, virtual and physical meet-and-greets, and discussions.
     18. Develop and implement a process for regularly hosting brown bags or
         other training classes to build awareness of NRC social media activities.
     19. Evaluate all of OPA‘s published materials and make sure information on
         how social media can be accessed by users is clearly defined and visible.


14
     "The Rise of Digital Influence," Brian Solis and Altimeter Group.


                                                  24
     20. Periodically host a blogger‘s roundtable where NRC invites prominent
         nuclear bloggers to opine on key issues. This can be done either in
         person or virtually through forums such as Google Communities.
     21. Monitor, note, and engage frequent posters, commenters, and active
         Twitter followers.

INFLUENCE
Key Finding: NRC’s authority and leadership offline is not adequately reflected
online
Digital influence is defined as ―the ability to cause effect, change behavior, and
drive measurable outcomes online.‖15 The concept of digital influence and its
use as a mark of social media‘s return on investment emerged as recently as
2009 with the launch of Klout,16 a social media analysis tool that measures users‘
influence across their social network.
While influence may suggest activities that run counter to NRC‘s mandate to
remain a neutral party to the pro- or anti-nuclear energy debate, in the context of
social media, it provides a powerful metric and concept for understanding how
well NRC is able to harness and amplify its public perception and credibility on
digital platforms to meet Open and Digital Government directives. The goal of
measuring and cultivating influence in this context is not to advocate for or
endorse nuclear energy—which would defy NRC‘s mandate to stay nuclear-
neutral—but to influence citizen understanding of nuclear safety, regulations, and
the role of the NRC. Cultivating influence amplifies NRC‘s ability to meet its
mission of educating the public on nuclear power and the regulations that govern
it.
NRC is not currently a leading influencer on social media. With a Klout score
(displayed in Figure 11) of 56 out of 100, it ranks 14th amongst a list of 50 peer
organizations and influencers, including NEI and the American Nuclear Society
(ANS), which boast a higher Klout status alongside bloggers such as Margaret
Harding (an international recognized nuclear expert) and organizations such as
FOE and Union of Concerned Scientists, that typically have anti-nuclear

15
     ―The Rise of Digital Influence,‖ Brian Solis for Altimeter Group.
16
     Klout offers one of the first quantifiable measures and methodology of the value of a user‘s
     social media activity. To achieve what is known as a ―Klout score,‖ the software combines
     network data (i.e., the number of ―followers‖ of ―friends‖) from sites such as Twitter and
     Facebook with engagement indicators (how often content generated by those users are
     responded to or shared). Other services have risen since, competing with Klout on accuracy
     and market share over what has emerged as the significant business of measuring social
     media‘s return on investment. Klout alone boasts 100 million profiles, which include major
     commercial brands like Coke, McDonalds, and Nissan. This is important because the potential
     for social influence is significant on both sides of the equation. Services like Klout that rank
     and identify ―influence‖ reveal opportunities for organizations like NRC to cultivate mutually
     beneficial relationships with ―influencers‖ in the digital nuclear conversation and their broad
     social networks.


                                                   25
platforms. NRC also occupies a similar mid-level 22nd rank in terms of strength
of topical influence within ―nuclear‖ conversations. In fact, NRC is currently not
―strong‖ in the nuclear topic at all, especially when compared to other groups
(particularly anti-nuclear groups like ―Occupy Fukushima‖ and ―Fukushima
News,‖ which boast higher levels of influence and overall social media activity).




                                    Source: Klout.

               Figure 11: Export of NRC‟s Klout Score Analysis
While Klout and its peers are growing in popularity as measures of digital
influence, NRC should not overly focus on scores generated by these companies
alone. It is widely believed that no algorithm or company, no matter how
complex or prolific, can claim a completely accurate estimation of ―influence.‖
However, what these measures do indicate is NRC‘s social capital or stature
within the digital nuclear network and conversation. These scores also provide
insights into the interests and topics that contribute to that standing. The score
itself should be considered a benchmark that transforms users who follow NRC
into potential influencers to be targeted for outreach, as well as part of an
ongoing environmental scan that allows NRC to measure its influence against
peers.


                                          26
  Data Source: Analysis of 50 NRC peers and nuclear influencers identified through Radian6,
                                stakeholder interviews, Klout

               Figure 12: NRC Klout Scores Rated Against Peers
NRC‘s level of influence is highly dependent on its responses to major nuclear
news items, such as the Fukushima Daiichi nuclear event in March 2011, where
social media activity (both readership and shares of NRC content) and NRC user
engagement was high but not sustained. NRC‘s current occupation of a mid-
level rank on the influence scale may be skewed by the spike in activity during
March 2011, which explains the ranking NRC occupies in terms of raw touch-
points. This ranking indicates that while NRC may occasionally enjoy high traffic,
it does not actively engage those who visit or build and sustain relationships.
This is a missed opportunity for NRC to capture and maintain interest among
influential users.
NRC Lacks Digital Influence Because It Does Not Target Digital Influencers
External interviews and responses to the evaluation team‘s public Google Forum
indicated that NRC‘s lack of digital influence is largely due to factors such as the
nature of NRC‘s content, lack of public awareness of NRC‘s presence on social
media, and the lack of targeted outreach to digital influencers who could amplify


                                             27
network reach. This analysis is reinforced by interviews with congressional
nuclear power subject matter experts, journalists, and non-profit leaders who
revealed in near consensus that NRC is non-influential due to its lack of
consistent participation in digital nuclear conversation. Several interviewees
alluded to the fact that they would neither turn to NRC social media channels for
online information nor would they be inclined to share the content on NRC social
media sites.
NRC Should Command the Same Level of Authority and Leadership over
the Nuclear Conversation Online as it Does Offline
According to author and social media guru Brian Solis, ―an influencer is defined
as someone (or an organization) with notable status and focus within a
community who possesses the ability to cause effect or change behavior among
those to whom they are connected.‖17 An ideal state for NRC would be one
where the organization, as the regulatory agency of the nuclear industry, is a
digital influencer commanding the same level of authority and leadership over the
nuclear conversation online as it does offline. While remaining cognizant of how
―influence‖ is perceived and used in an organization with a mandate against
advocating for or against the industry it is regulating, the NRC could use social
media to cultivate a greater influence in the digital nuclear conversation, which
would help the organization meet its public education mandates.
NRC Would Benefit from More Influence Online
NRC can be expected to occupy a mid-level position on the influence scale given
that the agency has only been participating in social media for less than two
years and has dedicated limited resources to the effort. However, there is risk
that if NRC does not raise its online influence and profile within the nuclear
conversation, other organizations will dominate the discussion and NRC‘s
important, objective information will be overshadowed.
NRC would benefit from a higher influence score and rank because it would lead
to higher visibility and engagement not just with average citizens but also with
stakeholders who have strong networks, substantive content, and quality
engagement. Being known as a digital influencer should be an aspirational goal
that NRC works towards because it would be positively perceived by social
media users that NRC enjoys a level of sophistication, technology-savvy, and
innovation that is not typically associated with a Government entity. This alone
would position NRC uniquely in both the nuclear social media space as well as
amongst its Government peers.
NRC Benefits from Reaching Out to Digital Influencers
Influencers acquire their status, popularity, and prominence in social media
through their deep, at times exhaustive knowledge and interest in a specific topic.
Their content focus yields a dedicated following of like-minded users who come

17
     ―The Rise of Digital Influence,‖ Brian Solis for Altimeter Group.


                                                   28
to rely on these influencers for information and insight that often times has the
ability to shape opinions and even behavior. This is particularly true in the
private sector where marketing efforts targeting influencers has had measurable
impact on sales or service adoption. By delivering share-inducing content,
influencers cultivate large, loyal social networks, and then ascribe to these
influencers significant authority that frequently extends from online to offline via
live speaking engagements and book deals.
Identifying and building relationships with digital influencers is therefore a key
strategy for NRC because it has the ability to drive measurable outcomes in
social media. Digital influencers can give individuals and agencies a measured
amplification and magnified influence in social media messaging efforts. With its
limited dedicated social media resources, NRC can maximize social media
messaging by reaching out to digital influencers rather than launching a larger
scale campaign. Even if NRC were to engage a few influencers via Twitter, or
invite a handful to a blogger roundtable or virtual press conference, or inquire of
these influencers what kinds of content and information they feel would be
relevant to the greater nuclear community, the results of these efforts would yield
greater network reach and overall influence than if NRC were to engage the
general public.
In choosing influencers, NRC would do well to heed suggestions made by Brian
Solis, who writes:
          The individuals you choose should offer a notable balance of reach,
          reputation, relevance, and resonance. Remember, [citizens] align
          with respected people for personal reasons. Include a mix of
          popularity and authority to evaluate how your [users] respond and
          to what extent. Modify the program as necessary. Last but not
          least, don‘t just walk away. Continue to experiment and find new
          and engaging ways to recognize and reward [users] and the people
          who just may influence their actions and behavior. 18
By studying the online nuclear community and the people who matter to them,
NRC will benefit from a new level of public awareness and sensitivity that will
have a positive impact in how the agency is perceived online.
Recommendations:
We recommend that the OPA:
     22. Develop and implement a process to evaluate and monitor NRC‘s
         influence scores quarterly to capture and understand existing user
         sentiments, behavior, and awareness.




18
     "The Rise of Digital Influence," Brian Solis and Altimeter Group.


                                                  29
     23. Develop and implement a process to evaluate how NRC‘s score rises or
         falls dependent on a rise in readership or engagement and adjust
         strategies depending on outcome.
     24. Develop and implement a process to solicit feedback from digital
         influencers about what they see are trends, preferences and needs in
         information and content within the digital nuclear community.

SECURITY
An organization‘s use of social media technology can create security risks and
vulnerabilities. NRC has mitigated this risk by leveraging external, third-party
channels (e.g., NRC Blog via WordPress, YouTube, Twitter, and Flickr) for its
social media program. The agency must balance transparency and openness
with the sensitive nature of its mission as a nuclear regulatory agency.
This section provides an assessment of privacy and security risks and
vulnerabilities associated with the use of social media at NRC. Reviews of NRC
information management and security policies and interviews with NRC
information technology (IT) security personnel revealed a lack of standard
operating procedures (SOPs), processes, and specific activities or policies
regarding social media security. As a result, the evaluation team expanded our
research and analysis to include a review of Federal information management
and security policies and guidelines on social media, best practices, and the
social media policies of other Federal regulatory agencies, including those with a
regulatory mission. These policies, processes, procedures, and best practices
were used to evaluate social media security at NRC. Specific focus was placed
on policy, operational controls, governance, and records management/archiving.
Policy
Key Finding: While NRC is compliant with Federal social media policies and
regulations, it should take measures to more effectively integrate social media
into its information security policy framework
Unlike the privacy, records management, and breach response policies that are
codified in management directives, NRC‘s social media policy is categorized as
―interim‖ despite the structure and scope of the guidance. The Interim Guidance
on the Use of Social Media19 remains an interim document since its agency wide
dissemination in January 2011.
Federal and NRC social media policies are currently not included in NRC‘s key
information management and security policies and guidance such as:
Management Directive (MD) 2.7, Personal Use of Information Technology; MD
3.2, Privacy Act; MD 3.1, Freedom of Information Act; MD 3.53, Records and
Document Management Program; the Computer Security and Incident Response


19
     The Interim Guidance on the Use of Social Media was issued Agencywide on January 2011
     via Yellow Announcement YA-11-005 (ADAMS Accession #103060402).


                                              30
   Policy; and the Personally Identifiable Information (PII) Breach Notification Policy
   (see table below). The phrase ―social media‖ is not mentioned in any of these
   guidance documents. Table 3 contains an overview of the policy MDs that do not
   include Federal and social media policy guidance.

              Table 3: NRC Information Management and Security Policies

Policy/MD Title               Date           Revised/             Description
                              Approved       Expiration Date
MD 2.7, Personal Use of       February 27,   July 28, 2006        Provides guidance for employees on the
Information Technology        2003                                appropriate limited personal use of NRC
                                                                  information technology resources.

MD 3.1, Freedom of            June 6, 2011   June 6, 2016         Provides policy guidance for the review
Information Act                              (Expiration)         and processing of FOIA and Privacy Act
                                                                  Requests.

MD 3.2, Privacy Act           June 16,       June 27, 2007        Provides policy guidance on the
                              2003                                appropriate agencywide implementation
                                                                  of the Privacy Act, establishment of
                                                                  systems of records, and the protection of
                                                                  employees and members of the public
                                                                  from the unnecessary invasion of
                                                                  personal privacy.

MD 3.53, Records and          June 15,       March 15, 2007       Provides policy guidance on the
Document Program              1995                                management of Agency records and the
                                                                  Agencywide Documents Access and
                                                                  Management System (ADAMS)

Computer Security and         July 3, 2008   N/A                  Provides policy guidance on the end-to-
Incident Response Policy                                          end management of computer security
                                                                  incidents.

Personally Identifiable       September      February 9, 2009     Provides guidance to personnel about
Information Breach            19, 2007                            their responsibilities to protect personally
Notification Policy                                               identifiable information (PII) from
                                                                  unauthorized access and disclosure and
                                                                  to standardize response and notification
                                                                  procedures for breaches and incidents.



   The Privacy Act MD (last revised in June 2007) is due for updates and renewal,
   but key NRC information management and security staff interviewed for this
   report did not know if social media policies will be included in the updated
   directive. Likewise, MD 3.53, Records and Document Management Program,
   was last revised in 2007 and should be updated as well, particularly considering
   all of the guidance issued by the National Archives and Records Administration
   (NARA) in the last five years on the management of web applications, web
   records and Web 2.0 technologies.20 Updating MD 2.7, Personal Use of


   20
        NARA Bulletins: 2006-04 – Scheduling Electronic Copies of Email and Word Processing
        Records (July 12, 2006); 2008-05 - Guidance Concerning the use of E-mail Archiving
        Applications to Store E-mail (July 31, 2008); 2010-05 – Guidance on Managing Records in
        Cloud Computing Environments (September 30, 2010); 2011-02 – Guidance on Managing

                                                   31
Information Technology is equally important because the directive is both
relevant and closely linked to the use of social media at NRC.
The exclusion of social media may be partially due to the timing of the
development of NRC information management and security policies and MDs.
For example, MD 2.7, Personal Use of Information Technology was last updated
in 2006, almost one year before the enactment of the Open Government Act of
2007 and it has not been updated since that time. Another likely reason that
social media is not integrated into information management policies is due to the
process of revising policies at NRC. According to the Team Lead of the OIS
Technology Direction and Standards Team, social media touches multiple MDs
and would therefore be challenging to integrate in such a short span of time.
Despite the aforementioned challenges, NRC can model best practices and
guidance established by agencies such as NARA for integrating social media into
information management and security policies particularly in key areas such as
records management. NARA Bulletin 2011-02, Guidance on Managing Records
in Web 2.0/Social Media Platforms,21 provides guidelines for agencies to update
policies and procedures to include the management of records (throughout the
entire lifecycle from creation through disposition) produced and generated
through social media. Specifically, the bulletin provides fundamental guidance to
Federal agencies to determine ―the most appropriate ways to incorporate record
keeping requirements into their business processes‖ but not ―step-by-step
guidance that can be applied to agency-specific use of a Web 2.0/social media
platform.‖ The bulletin provides key recommendations and guidance for Federal
agencies in three key areas:
     Policy – Agencies must ensure that records management guidance is
     included in social media policies. Records management stakeholders and
     social media content creators should collaborate to establish discrete roles
     and responsibilities and standardized records management processes and
     procedures to ensure that social media records are appropriately identified,
     tracked, and managed.
     Records Scheduling – Agencies must develop new or apply existing records
     schedules to social media records based on content and how platforms are
     hosted (i.e., internal or external to agencies‘ websites and networks).
     Preservation – Agencies must develop technologically adaptable and efficient
     processes and procedures to protect and preserve social media records.


     Records in Web 2.0/Social Media Platforms (October 20, 2010); 2011-03 – Guidance
     Concerning the use of E-mail Archiving Applications to Store E-Mail (December 2010);
     Reports: A Report on Federal Web 2.0 Use and Record Value (2010).
21
     NARA Bulletin 2011-02 expands existing guidance on web records such as NARA Guidance
     on Managing Web Records issued in January 2005 (http://www.archives.gov/records-
     mgmt/policy/managing-web-records-index.html) and Implications of Recent Web Technologies
     for NARA Web Guidance (http://www.archives.gov/records-mgmt/initiatives/web-tech.html).


                                                32
Despite the agency‘s overall compliance to Federal social media policies, not
including social media in the information management and security policy
framework can potentially lead to a lack of adherence to Federal guidelines.
System users may not be aware of their responsibilities to safeguard PII and
sensitive agency information when using social media for both business and
personal use. This may lead to potential PII spills or improper disclosure of
sensitive agency data and proprietary information.
Recommendations:
We recommend that the Executive Director for Operations:
   25. Update the agency‘s information management and security policies to
       include social media.
       A) Include social media policy guidance in the revised MD3.2, Privacy Act
          in accordance with guidance provided in OMB Memorandum 10-23,
          Guidance for Agency Use of Third Party Web Sites and Applications.
       B) Revise MD 3.53, Records and Document Management Program and
          include social media in accordance with the guidance provided in
          NARA Bulletin 2011-02, Guidance on Managing Records in Web
          2.0/Social Media Platforms.
       C) Revise the existing PII Breach Notification Policy and Computer
          Security Incident Response Policy to include the following statement:
          All of the information contained in this policy applies to the use of
          social media.
Safeguards
Key Finding: While NRC has taken some measures to reduce social media risks
and vulnerabilities, its current safeguards should be enhanced to adequately
protect the agency
Security Assessments
While NRC conducted initial security assessments prior to the launch of its
Twitter, YouTube, and Flickr sites, it has not conducted an assessment on
any of these channels since that time and currently has no mechanism to
identify or track social media-specific risks, vulnerabilities, or incidents
Prior to January 2011, Twitter, YouTube, and Flickr were blocked by NRC. The
OIS Infrastructure and Computer Operations Division (ICOD) conducted an initial
review to assess the risks associated with NRC staff accessing social media
sites from within the NRC network environment. The assessment indicated that
the risks associated with social media use at NRC are mitigated by security
controls that are currently in place, such web proxy filtering, web content filtering
and malware scanning, desktop virus/malware canning and monitoring by the
agency‘s intrusion detection system.



                                         33
Based on the results of its original security assessment, ICOD made a
recommendation to OIS and CSO senior management who approved the
operation and use of social media channels.
To its credit, NRC amended the WordPress Terms of Service (TOS) Agreement
prior to the launch of the NRC Blog. The additions are reflective of the agency‘s
thoughtful and deliberate approach to the secure utilization of social media
platforms and protection of the network and its users. The amendments included
the following language: WordPress will, in good faith, exercise due diligence
using generally accepted commercial business practices for IT security, to
ensure that systems are operated and maintained in a secure manner, to ensure
that proactive measures are in place to timely identify security vulnerabilities, and
to ensure that the management, operational and technical controls will be
sufficient to guarantee the security of systems and data.
However, NRC‘s social media channels have not been screened since the initial
security assessments in 2011. By not conducting annual assessments, NRC is
not adhering to Federal best practices guidance or even the agency‘s own
guidelines. Recommendations outlined in the Federal Chief Information Officer
(CIO) Council Report direct agencies to ―provide an annual information
technology management optimization plan for improving security, technology,
operations and service.‖ Likewise the NRC Web Site Policy Exception
Evaluation documents that ―OIS and CSO will conduct periodic assessments to
ensure that the environmental security controls put in place by the OIS remain
effective against the threats posed by the NRC use of Flickr.‖22
Integrating annual security assessments of social media channels into
assessment and reporting routines is an efficient way to track policy changes and
keep pace with Federal guidelines and standards. For example, NRC is required
to adhere to numerous information management and security reporting
requirements, such as the Federal Information Security Management Act
(FISMA) Report, NRC Annual Chief Freedom of Information Act (FOIA) Officer
Report, NRC Annual FOIA Report, and the Records Self-Assessment Survey, to
name a few.
Security assessments of the social media channels should be conducted as part
of the agency‘s information management and security reporting activities. This is
particularly important because agencies are now required to address the
utilization of social media technologies in reports such as the NRC Annual Chief
FOIA Officer Report, which has not traditionally included questions about Web
2.0 technologies to enhance transparency and openness. Increasingly, the
merger of information management and security in Federal reports, as evidenced
by the Chief FOIA Officer Report, will impact NRC‘s reporting activities. Accurate

22
     Conducted by the NRC ICOD and the CSO Security Operations Center, the purpose of the
      Web Site Policy Evaluation was to evaluate the risks of unblocking social media sites and to
      provide recommendations regarding whether or not NRC should allow access to and use of
      social media sites. The evaluation was completed on the February 4, 2011.


                                                  34
reporting is contingent upon effective agency-wide collaboration and cooperation
among key privacy, records management, FOIA, and security stakeholders.
Like all IT systems, the security risks and vulnerabilities of social media channels
should be reassessed on a routine basis to ensure that appropriate safeguards
are in place and that network vulnerabilities do not exist for potential exploitation.
Cyber criminals are continually enhancing the sophistication of their attacks and
NRC must ensure that their preventative measures are keeping pace.
Recommendation:
We recommend that the Executive Director for Operations:
     26. Conduct annual security and vulnerability assessments of NRC‘s social
         media channels. CSO should outline the requirements to perform the
         assessments and facilitate the process.
Training
Existing NRC voluntary and mandatory training currently does not address
the risks associated with the use of social media and the responsibilities of
NRC employees to safeguard personally identifiable and sensitive agency
information
The omission of Federal and NRC social media policies from the Computer
Security Awareness Course (CSAC) and OPA social media training reflect a
training gap because all NRC network users are required to complete the CSAC
annually and OPA social media training is mandatory for designated office
bloggers.
Lack of training translates to a lack of agencywide awareness regarding the
security risks and vulnerabilities associated with the use of social media. Risks
and vulnerabilities such as phishing, social engineering, malware, improper
disclosure of information (both PII and sensitive agency data), and web
scraping23 are mitigated by effective training and awareness, as noted in the
Federal CIO Council Report, Guidelines for the Use of Social Media by Federal
Departments and Agencies and GAO-10-872T.24 These risks and vulnerabilities
as well as employees‘ responsibilities to safeguard personally identifiable
information (of fellow employees and members of the public) and sensitive
agency information when using social media are not addressed in NRC‘s existing
training activities.
The CSAC should include information about and references to Federal social
media policies and guidelines such as:

23
     Often referred to as web harvesting, web scraping is a software technique for extracting
     information from websites.
24
     According to GAO-10-872T, Information Management Challenges in Federal Agencies’ Use of
     Web 2.0 Technologies, ―…training may be needed to ensure that employees are aware of
     agency policies and accountable for adhering to them.‖


                                                 35
     NARA Bulletin 2011-02, Guidance on Managing Records in Web 2.0/Social
     Media Platforms (October 20, 2010)25 – Issued to the heads of Federal
     agencies, the guidance builds on two other NARA bulletins—Guidance on
     Managing Records and Implications of Recent Web Technologies. The
     bulletins provide baseline guidance for Federal agencies on how to manage
     records produced and generated through social media.
     Guidelines for the Use of Social Media by Federal Departments and
     Agencies, Federal CIO Council (September 2009) – Developed by the Web
     2.0 Working Group of the Information Security and Identity Management
     Committee, the document contains Federal guidance and best practices on
     the use of social media and the challenges and security risks associated with
     its use that are unique to Federal agencies.
     OMB Memorandum, Social Media, Web-Based Interactive Technologies, and
     the Paperwork Reduction Act (April 7, 2010) – The Memorandum provides
     guidance to Federal agencies on how the effective use of social media can
     support efforts to comply with the Paperwork Reduction Act and Open
     Government Act.
     OMB Memorandum 10-23, Guidance for Agency Use of Third Party Web
     Sites and Applications (June 25, 2010) – The memorandum provides
     guidance to Federal agencies on the importance of safeguarding PII and
     sensitive agency information and directs Federal agencies to develop privacy
     impact assessments (PIAs) for third-party web sites and applications pursuant
     to OMB Memorandum 03-22.
It is important to note that all of the Federal social media policies and guidelines
were issued before the Interim Guidance on the Use of Social Media was
published and disseminated in January 2011. The Federal CIO Council Report
was issued in September 2009, almost 6 months before the establishment of the
NRC Twitter page. All of this suggests that at least some, if not all, of the
Federal policy guidance on social media could be integrated into the CSAC.
Computer Security Awareness Course
All NRC network users are required to complete the CSAC each fiscal year. For
FY2012, the CSAC was available as early as January 2012 and all system users
were required to complete the course by August 15, 2012. System users must
pass the test at the end of the course and acknowledge the Rules of Behavior
(via electronic signature) to complete the CSAC.
However, the course does not test network users‘ knowledge of social media
security, specifically their responsibilities to safeguard PII (of personnel,
members of the public and NRC stakeholders), sensitive agency data, and
proprietary information when using social media inside and outside of the NRC
network.

25
     http://www.archives.gov/records-mgmt/bulletins/2011/2011-02.html.


                                                36
OPA Social Media Training
OPA developed social media training, but the training consists of information-
based overviews of social media and NRC blogging guidelines. To its credit,
OPA‘s social media training is comprised of three main components: Two Power
Point documents (Social Media and the NRC: What We’re Doing, Why We’re
Doing It, and What Else We Might Do and Mini Blog Training) and a brown bag
in-person training session (in which the Social Media and the NRC Power Point
document is presented). The in-person brown bag session is provided by OPA
when requested by NRC offices.
Based on a content review of the OPA social media training, the documents do
not contain information about Federal and NRC social media guidelines, security
risks and vulnerabilities or instructions for office bloggers to safeguard PII,
sensitive agency data, and proprietary information when developing posts for the
NRC blog. This is important because office bloggers are responsible for
removing any PII and sensitive information from posts prior to submission to
OPA. It is therefore incumbent upon office bloggers to know what information
should be excluded or redacted from posts. This places the responsibility to
safeguard PII and sensitive agency information when utilizing social media on
office bloggers rather than on all NRC personnel. Designated office bloggers
must be able to identify PII, sensitive agency data, and proprietary information as
well as have basic knowledge of Federal and NRC policies that govern such
information as well as social media and web policies. This highlights the need for
effective social media security training and awareness.
According to the Federal CIO Council Report, ―the appropriate use of social
media in the Federal government should be part of the security awareness
training.‖26 Social media should be an essential part of IT security training at
NRC. Failure to do so could result in a lack of agency-wide awareness about the
appropriate use of NRC‘s social media channels and users‘ responsibilities to
safeguard PII and sensitive agency information when using social media
personally and professionally. In this manner, training serves two purposes:
overall awareness and risk mitigation.
It is impossible to completely eliminate risk, but ongoing, structured training and
awareness activities can help mitigate risks and vulnerabilities for system users.
It is users, according to data gathered through a telephone interview with a
United States Computer Emergency Readiness Team (US-CERT)
representative, that are at the center of numerous social media incidents. This
representative noted that the majority of social media-related incidents reported




26
     Guidelines for the Use of Social Media by Federal Departments and Agencies, Federal CIO
     Council, September 2009.


                                               37
through US-CERT fall under Category 4 - Improper Usage, described as ―a
person violating acceptable computing use policies.‖27
The NRC Computer Security Incident Response Team (CSIRT) follows US-
CERT guidelines for the categorization of computer security incidents. Category
4 incidents are the second highest number (30) of incidents. The highest number
of incidents (56) was Category 5 – Scans, Probes, Attempted Access, described
as ―any activity that seeks to access or identify a Federal agency computer, open
ports, protocols, service, or any combination for later exploit.‖28 The total number
of NRC computer security incidents for FY2011 is 138. Table 4 below illustrates
computer security incidents reported to NRC CSIRT for FY2011.

                  Table 4: NRC Computer Security Incidents – FY2011

Category                   Description                                                         # of
                                                                                               Incidents
CAT 1                      An individual gains logical or physical access without permission   23
Unauthorized Access        to a Federal agency network, system, application, data, or other
                           resources
CAT 2                      An attack that successfully prevents or impairs the normal          0
Denial of Service          authorized functionality of networks, systems or applications by
                           exhausting resources
CAT 3                      Successful implementation of malicious software (e.g., virus,       7
Malicious Code             worm, Trojan horse, or other code-based malicious entity) that
                           infects an operating system or application
CAT 4                      A person violates acceptable computing use policies                 30
Improper Usage
CAT 5                      Any activity that seeks to access or identify a Federal agency      56
Scans, Probes, Attempted   computer open ports, protocols, service, or any combination for
Access                     later exploit
CAT 6                      Unconfirmed incidents that are potentially malicious or anomalous   22
Investigation              activity deemed by the reporting entity to warrant further review
Total Incidents                                                                                138



It is unclear what percentage of the total incidents are social media related
because NRC does not have a separate tracking or monitoring process for social
media security incidents. The Agency categorizes incidents according to US-
CERT guidelines.
Recommendations:
We recommend that the Executive Director for Operations:



27
     US CERT Federal Incident Reporting Categories: http://www.us-cert.gov/government-
     users/reporting-requirements.html.
28
     FY2011 NRC Internal Computer Security Incident Summary.


                                                  38
   27. Develop a section on social media security for inclusion in the annual
       mandatory CSAC. Include information on Federal and NRC social media
       policies and employee responsibilities to safeguard PII and sensitive
       agency information when using social media inside and outside of the
       NRC network.
   28. Develop a section on social media security for inclusion in the OPA social
       media training for all official NRC bloggers. Include an overview of social
       media security and Federal and NRC social media policies, as well as
       guidelines regarding employee responsibilities to safeguard PII and
       sensitive agency information when developing posts for the NRC blog.
Awareness
While NRC has taken some measures to remind employees of their
responsibilities to safeguard PII and sensitive agency information when
using social media, it would benefit by increasing warnings, blockers, and
announcements
Accessing Social Media Sites
NRC has established warnings and reminders for approved and blocked
social media sites but these notices should be more detailed in order to
influence user behavior
Security warnings and blockers for social media sites have been embedded into
the NRC network. System users and web page viewers receive warnings/
blockers if they attempt to: (1) access approved social media sites (e.g., Twitter)
inside the NRC firewall, (2) access approved social media sites via icons on the
NRC public website, and (3) access blocked social media sites such as
Facebook.
Accessing Approved Social Media Sites Inside the NRC Firewall
If system users attempt to access approved social media sites inside the NRC
firewall, users receive the following warning: ―You are about to visit a social
media website. Please ensure that any posting that you make is in conformance
with applicable NRC policy. NRC employees must comply with the Agency’s
Interim Guidance on the Use of Social Media. Click on Accept to acknowledge
this message.‖
The message contains a link to the interim guidance but no information about
Federal social media policies or reminders about safeguarding PII and sensitive
agency information when using social media. Despite the option to access the
Interim Guidance on the Use of Social Media, users must acknowledge the
message (by clicking Accept) to access the approved social media sites. Users
can therefore ―acknowledge‖ policies without actually reading the policies. See
Figure 13 below for an illustration of the process.




                                         39
Figure 13: Accessing Approved Social Media Sites inside the NRC Firewall
If system users attempt to access approved social media sites via the icons on
the NRC webpage (e.g., Twitter), they receive the following general message
(see Figure 14): ―You have requested a website outside of http://www.nrc.gov/.
Thank you for visiting. You will now be directed to: NRC Twitter Feed. Cancel or
press the ESC key.‖




 Figure 14: Warning Banner When Accessing Approved Social Media Sites
           from the NRC Homepage via the Intranet and Internet
Accessing Blocked Social Media Sites Inside the NRC Firewall
If system users attempt to access blocked social media sites, such as Facebook,
by typing the URL (www.facebook.com), they immediately receive a Problem
Report with the following message: The page you are trying to access is blocked

                                        40
because the web content category of ―Social Networking‖ is not allowed by
agency policy. Figure 15 illustrates the full Problem Report. Included in the
message are a reference to two management directives (MD 2.6 Information
Technology Infrastructure and MD 2.7 Personal Use of Information Technology)
and a link to the Yellow Announcement #02229 regarding appropriate use of the
Internet, but no reference or link to the Interim Guidance on the Use of Social
Media.




     Figure 15: Accessing Blocked Social Media Social Media Sites Inside the
                                 NRC Firewall
There is no requirement in the interim guidance regarding which instructions and
information should be included in the warnings and reminders. The interim
guidance requires only that NRC develop ―an alert to a visitor explaining that
visitors are being directed to a nongovernmental website that may have different
privacy policies than those of NRC.‖ However, the interim guidance does not
require that warnings and reminders include instructions for employees to



29
     Issued on April 5, 2005, Yellow Announcement #022 is a reminder to employees that they are
     permitted to ―use the Internet for limited personal use when such use involves minimal or no
     additional expense to the Government, is performed on the employees‘ own time, does not
     interfere with the NRC‘s mission or operation, does not violate the Standards of Ethical
     Conduct for Employees, and is not otherwise prohibited by law.‖ Despite the inclusion of the
     policy in the warning, the MD to which the policy refers is outdated and does not include
     Federal and NRC social media policies.


                                                41
safeguard PII and sensitive agency information in their personal and professional
use of social media.
Warnings and blockers should be specific and remind employees of their
responsibilities to safeguard PII and sensitive agency data as well as what
information should not be disclosed when using social media sites inside and
outside of the NRC network. According to the Federal CIO Council Report,
reminders should educate users about specific social media threats before they
are granted access to social media sites to ensure that users are aware because
many users may be ―desensitized to openly granting unnecessary access to their
private information.‖
The security warnings should be part of the agency‘s overall ongoing social
media training and awareness strategy. More importantly, the warnings and
reminders should be reviewed on an annual basis to ensure compliance with
rapidly changing Federal policies and adaptation to new web applications and
technologies. It is important to note that all of the warnings and reminders should
be based on the 10 guiding principles for social media utilization outlined in the
Interim Guidance on the Use of Social Media.
Risks and vulnerabilities resulting from insufficient warnings and reminders are
primarily associated with user behavior. System users have the potential to
access social media sites without reading and understanding Federal and NRC
social media policies. The lack of knowledge may result in unintentional PII
spills, inappropriate postings, and improper disclosure of sensitive agency and
safeguards information (SGI). These risks and vulnerabilities underscore the
importance of consistent reminders and warnings as part of ongoing training and
awareness activities.
Agencywide Announcements
NRC provides minimal agencywide announcements for NRC system users
on the safeguarding of PII and sensitive agency information when using
social media
Since NRC launched its first social media site, the NRC Blog, in January 2011,
the agency has issued 260 Yellow Announcements. Of these Yellow
Announcements, only two are social media-related: #2011-005 – Interim
Guidance on the Use of Social Media (January 5, 2011) and #2011-019 – NRC
Launches Agency-wide External Blog Today (January 31, 2011) (see Figure 16
below).




                                        42
                               Between January 2011 and
                             September 2012 NRC has issued
                             260 Yellow Announcements and
                                only two (YA#2011-05 and
                             YA#2011-019) were social media
                                          related.




         (source: http://www.internal.nrc.gov/announcements/yellow-previous.html)

                    Figure 16: NRC Yellow Announcements
Recommendations:
We recommend that the Executive Director for Operations:
   29. Disseminate electronic agencywide Yellow Announcements on a periodic
       basis regarding social media security, NRC-approved social media sites
       and the responsibilities of employees to safeguard PII, sensitive agency
       data, and proprietary information when using social media sites inside
       and outside of the NRC network.
   30. Revise warning messages for network users:
          A) Revise warning message for users that attempt to access
             approved social media sites to indicate that any postings they
             make must comply with Federal and NRC social media policies
             and that they are responsible for safeguarding the personally
             identifiable information of themselves, fellow employees and
             members of the public.
          B) Revise the warning message to users and visitors who attempt to
             access approved social media sites via the NRC Intranet site and
             public facing website to indicate that activity on NRC social media
             sites is monitored by the Agency and subject to NRC policies.
   31. Revise the Problem Report to include a link to the Interim Guidance on
       the Use of Social Media.
   32. Include social media security articles in the IT Security Awareness
       Newsletter, which is published and disseminated by the Computer
       Security Office (CSO) on a quarterly basis.




                                            43
INTEGRATION
Social Media Program Support
Key Finding: All NRC social media activities are primarily managed and
operated by one person, which will be difficult to sustain as the social media
program matures
All NRC social media efforts are primarily managed and conducted by one
employee with some support from two other individuals. The volume of work
undertaken by this small staff is impressive as evidenced by the regular
publishing of content that has attracted a steady following and incremental rise in
viewership. The social media lead is responsive to blog comments, manages
article submissions from up to 25 blog writers from across the agency, and edits
these into a consistent voice while also maintaining content production for
YouTube and leading efforts to raise awareness of social media amongst NRC
employees.


 Table 5: Current Social Media Governance Structure and Responsibilities

  CURRENT FUNCTION:                     CURRENT FUNCTION:                   CURRENT FUNCTION:
  Social Media Lead                     Social Media Deputy                 Social Media Tech Lead 
  OPA                                   OPA                                 Office of Information
                                                                            Services
 Primary contact for all social media   Oversees YouTube and Flickr         All Tech support and training for
 and leads strategy                                                         social media platforms
                                        On YouTube, functions as
 Trains NRC staff on blog writing       producer, at-times director and     Default ―back-fill‖ for Social Media
                                        manages uploads                     Lead and Social Media Deputy
 Conducts brown bags and
 produces marketing collateral to       On Flickr, manages and edits
 increase knowledge and encourage       content and uploading
 use of social media
                                        Social media duties are only part
 Sole editor of blog                    of overall work as public affairs
                                        officer
 Moderates and responds to blog
 user comments

 Manages Twitter account, tweets,
 and requests from other
 departments on desired tweets

 Writes, shoots, and produces video
 content for NRC‘s YouTube
 channel

 Oversees Social Media Deputy


The limitations on time and staffing resources was cited repeatedly as a reason
behind the lack of activity in a number of areas, specifically targeted outreach,
expansion of activity beyond the blog, exploration of other platforms, and more
aggressive web analytics monitoring.


                                                    44
According to stakeholder interviews, limits to the expansion of key social media
strategies around public outreach, measurement, and platform adoption is
attributed to staff fatigue and limited knowledge of emerging trends in these
areas. For example, when approached with questions around expanding NRC‘s
presence on Twitter, staff expressed that they had ―reached the end of their
knowledge‖ with regards to ways to fully activate the potential for this technology.
Furthermore, all staff expressed the need for additional resources to free them up
from present day-to-day logistical oversight. They cited the newly created social-
media position description as a source of both relief from logistical tasks as well
as a knowledge base for trends, research, and strategic expansion.
Social Media Costs
The scope of this evaluation included the examination of budgetary concerns.
Establishing NRC‘s social media platforms cost $66,000 in contractor support
between August 2010 and July 2011. This contractor gathered business
requirements, performed technical analysis, prepared Capital Planning and
Investment Control (CPIC) review packages process, supported privacy impact
assessments, and supported the Authority to Operate/Use certification process.
This is a reasonable expenditure for this level of support.
NRC maintenance costs for its social media sites are minimal, amounting to
$67.95 per year for premium-level accounts on Wordpress and Flickr.30 NRC
does not spend any money on its Twitter or YouTube sites.
All maintenance is provided by existing FTEs in the OPA and the Office of
Information Services. NRC recently posted a position description for an
additional FTE specializing in social media. NRC anticipates that this individual
will be hired by the end of the 2012 calendar year.
Social Media Governance
Although NRC has a champion in its current social media lead, there is
limited coordination between key internal offices
Internal stakeholder interviews have clearly demonstrated a lack of consistent
and formal collaboration among OPA, OIS, and CSO. Although social media
appears to be integrated into guidance documents on NRC‘s Digital and Open
Government initiatives (particularly on the public website where links are frequent
between the Open Government pages and the social media platforms), in
practice, there appears to minimal coordination. Specifically, when the Evaluation
Team asked the OPA staff whether public feedback collected through the Open
Government form is shared with OPA, we were told that there is no structured
coordination. Furthermore, when asked about formal coordination of public
feedback and announcements on Open Government, we were told that such
activities were ad-hoc, periodic, and informally organized.



30
     Wordpress subscription costs $43 per year. Flickr subscription costs $24.95 per year.


                                                 45
Effective cooperation and collaboration are necessary for the full integration of
social media into the information management structure at NRC. NRC should be
commended for establishing a cross-agency Social Media Working Group to
explore the business value of social media to NRC. This group clearly outlined
all the aspects of social media including content, channels, security, privacy, and
archival issues and worked to develop the Official Presence Social Media
Business Vision and Scope document which led to the establishment of NRC‘s
official social media channels.
However, the working group was only created to explore and launch the sites
and was never intended to be an ongoing function.
Reestablishing the Social Media Working Group with a more targeted
representation of stakeholders from OPA, OIS, and CSO and with clearly defined
roles and responsibilities will help to ensure the ongoing coordination and
collaboration regarding social media activities such as policies, training,
awareness, and security across NRC. Additionally, this group can serve as a
forum to evaluate the effectiveness of current efforts and discuss future plans or
needs.
Having a single point of contact for all social media activities presents
some security risk
One person could be targeted and vulnerable to spear phishing, social
engineering, and web application attacks. The Senior Advisor for OPA could be
targeted for social engineering and other risks, such as spear phishing and
malware, due to her relatively visible role at NRC.
Adding to the more obvious risks, such as social engineering and phishing, is the
potential for PII spills and improper disclosure of information because all reviews
for PII and sensitive agency information are conducted by one person. There are
no documented redaction processes and procedures, no historical data, and no
log of posts from office bloggers. Furthermore, there is no documented process
for removing inappropriate content posted on the NRC blog.
Recommendations
We recommend that the Executive Director for Operations:
   33. Establish a social media governance structure including representatives
       from the OGC, CSO (Policy Standards and Training Team, Cyber
       Situational Awareness, Analysis and Response Team), OIS (ICOD,
       Enterprise Architecture Team, Records and Archives Services Section,
       FOIA/Privacy Section) and OPA, and convene periodic meetings to guide
       NRC policies and practices around social media content, security,
       privacy, and records management.
We recommend that OPA:
   34. Develop an SOP to track, monitor, and escalate to other NRC offices,
       comments posted on the NRC blog that do not adhere to NRC policies.

                                        46
CHAPTER 3: CONSOLIDATED
RECOMMENDATIONS

We recommend that OPA:
Measurement:
  1. Broaden NRC‘s definition of success beyond quantitative viewership rates
     to include qualitative evaluations of digital influence, thought leadership
     within the nuclear social media discussion, and strength of relationships
     with prominent influencers.
  2. Develop and implement a process to monitor user activity on NRC‘s
     social media platforms after content posts to evaluate content virality and
     network distribution.
  3. Develop a baseline for performance by benchmarking NRC‘s social
     media metrics (i.e., viewership, subscriptions, shares, and influence)
     against activity within the digital nuclear industry community.


Content:
  4. Generate content periodically that provides unique access to nuclear
     facilities and nuclear resources by providing photos and information.
  5. Make article authors more prominent by including the blog article byline at
     the top of each post (rather than the bottom) so readers are immediately
     aware of who wrote the articles.
  6. Develop and implement a process for creating more visibility into NRC‘s
     commenting policy and periodically respond to rejected posts to build
     trust and transparency.
  7. Rather than only soliciting input from and creating content around topics
     NRC departments are interested in, solicit input on a regular basis from
     readers and bloggers regarding content they would be most interested in
     (and at what level of technicality) and create content based on their input.
  8. Develop and implement a process for expanding tagging taxonomy
     beyond ―nuclear‖ so content is labeled by audience or type of information.
  9. Develop and implement a process for the use of rich media including
     videos, photos, charts, interactive graphs, and info-graphics in social
     media posts.
  10. Develop and implement a process for adding visual interest and
      facilitating access to existing blog posts. For example, embed YouTube
      videos and Flickr slideshows within blog posts.

                                       47
  11. Insert links in YouTube videos so videos are clickable and link back to
      www.nrc.gov, the blog, or other NRC platforms.
  12. Conduct periodic content analysis to glean which types of posts generate
      the most activity and replicate blog elements that have proven successful.
  13. Develop and implement a process for expanding photo offerings on Flickr
      beyond bar graphs or the NRC Chairman.


Reach:
  14. Allow and respond to user comments on NRC YouTube and Flickr sites
      rather than directing them to the NRC blog.
  15. Develop and implement a process for identifying digital influencers and
      monitoring activity by maintaining a matrix of influencers according to
      shifting scores and activity.
  16. Develop and implement a process for determining what information each
      user group needs and regularly provide that information on NRC‘s blog
      and in NRC‘s Twitter feed.
  17. Engage in active outreach to bloggers and other social media followers by
      providing special opportunities to connect with NRC staff, such as tailored
      content, virtual or physical meet and greets, and discussions.
  18. Develop and implement a process for regularly hosting brown bags or
      other training classes to build awareness of NRC social media activities.
  19. Evaluate all of OPA‘s published materials and make sure information on
      how social media can be accessed by users is clearly defined and visible.
  20. Periodically host a blogger‘s roundtable where NRC invites prominent
      nuclear bloggers to opine on key issues. This can be done either in
      person or virtually through forums such as Google Communities.
  21. Monitor, note, and engage frequent posters, commenters, and active
      Twitter followers.
Influence:
  22. Develop and implement a process to evaluate and monitor NRC‘s
      influence scores quarterly to capture and understand existing user
      sentiments, behavior, and awareness.
  23. Develop and implement a process to evaluate how NRC‘s score rises or
      falls dependent on a rise in readership or engagement and adjust
      strategies depending on outcome.
  24. Develop and implement a process to solicit feedback from digital
      influencers about what they see are trends, preferences and needs in
      information and content within the digital nuclear community.

                                       48
We recommend that the Executive Director for Operations:
Security:
   25. Update the agency‘s information management and security policies to
       include social media.
      A) Include social media policy guidance in the revised MD 3.2 - Privacy
         Act in accordance with guidance provided in OMB Memorandum 10-
         23, Guidance for Agency Use of Third Party Web Sites and
         Applications.
      B) Revise MD 3.53, Records and Document Management Program and
         include social media in accordance with the guidance provided in
         NARA Bulletin 2011-02, Guidance on Managing Records in Web
         2.0/Social Media Platforms.
      C) Revise the existing PII Breach Notification Policy and Computer
         Security Incident Response Policy to include the following statement:
         All of the information contained in this policy applies to the use of
         social media.
   26. Conduct annual security and vulnerability assessments of NRC‘s social
       media channels. CSO should outline the requirements to perform the
       assessments and facilitate the process.
   27. Develop a section on social media security for inclusion in the annual
       mandatory CSAC. Include information on Federal and NRC social media
       policies and employee responsibilities to safeguard PII and sensitive
       agency information when using social media inside and outside of the
       NRC network.
   28. Develop a section on social media security for inclusion in the OPA social
       media training for all official NRC bloggers. Include an overview of social
       media security and Federal and NRC social media policies, as well as
       guidelines regarding employee responsibilities to safeguard PII and
       sensitive agency information when developing posts for the NRC blog.
   29. Disseminate electronic agencywide Yellow Announcements on a periodic
       basis regarding social media security, NRC-approved social media sites
       and the responsibilities of employees to safeguard PII, sensitive agency
       data, and proprietary information when using social media sites inside
       and outside of the NRC network.
   30. Revise warning messages for network users:

             A) Revise warning message for users that attempt to access
             approved social media sites to indicate that any postings they make
             must comply with Federal and NRC social media policies and that
             they are responsible for safeguarding the personally identifiable
             information of themselves, fellow employees and members of the

                                        49
               public.

               B) Revise the warning message to users and visitors who attempt
               to access approved social media sites via the NRC Intranet site
               and public facing website to indicate that activity on NRC social
               media sites is monitored by the Agency and subject to NRC
               policies.
   31. Revise the Problem Report to include a link to the Interim Guidance on
       the Use of Social Media.
   32. Include social media security articles in the IT Security Awareness
       Newsletter, which is published and disseminated by the Computer
       Security Office (CSO) on a quarterly basis.


Integration:
   33. Establish a social media governance structure including representatives
       from the OGC, CSO (Policy Standards and Training Team, Cyber
       Situational Awareness, Analysis and Response Team), OIS (ICOD,
       Enterprise Architecture Team, Records and Archives Services Section,
       FOIA/Privacy Section) and OPA, and convene periodic meetings to guide
       NRC policies and practices around social media content, security,
       privacy, and records management.
   We recommend that OPA:
34. Develop an SOP to track, monitor, and escalate to other NRC offices,
    comments posted on the NRC blog that do not adhere to NRC policies.



AGENCY COMMENTS
At an exit conference on December 7, 2012, agency officials provided feedback
on the report‘s findings and recommendations and provided some suggested
editorial changes. Their comments were incorporated as appropriate. The
agency opted not to submit formal comments.




                                         50
Appendix I. Scope and Methodology
The NRC Office of the Inspector General (OIG) embarked on this evaluation to
assess the NRC‘s use of social media with regards to:

          Effectiveness in outreach and delivery of NRC‘s message
          Definitions of success of social media initiatives at NRC
          Engagement of stakeholders and the public using social media
          Budgetary and FTE concerns for maintaining social media outlets
          Commenting policies
          Archival issues
          Security issues

This evaluation focused on determining how NRC uses social media through
documentation reviews, assessment of NRC‘s current social media channels and
content, and interviews with NRC management and staff involved with social
media as well as external stakeholders who consume NRC social media.
The scope included NRC‘s official social media channels – the NRC Blog
(http://public-blog.nrc-gateway.gov/), Twitter (https://twitter.com/nrcgov),
YouTube (http://www.youtube.com/user/NRCgov), and Flickr
(http://www.flickr.com/people/nrcgov). Even though approximately one-third of
NRC‘s roughly 4,000 employees appear to be registered on the site,31 NRC does
approve the use of the social networking site LinkedIn for employees and it is not
considered an official NRC social media site. Additionally, NRC does not have
an official Facebook page, and it currently blocks access to Facebook for NRC
employees from within the NRC firewall.
The evaluation team analyzed NRC social media from five dimensions: content,
reach, influence, security, and integration. Key elements of each dimension are
described below.
         Content—an analysis of content and visuals disseminated via official
         NRC social channels. This included an assessment of whether
         information NRC creates and publishes is transparent, relevant,
         compelling, and engaging.
         Reach—an assessment of quantitative measures such as the number of
         individuals and stakeholder groups reached, the volume and frequency by
         which NRC social media content is consumed, shared, and repurposed,
         and NRC‘s activity in the nuclear conversations online.


31
     Source: LinkedIn.com.



                                           I-1
      Influence—an assessment of qualitative measures such as thought
      leadership, authority, cause and effect, and prominence around topical
      nuclear issues.
      Security—an assessment of privacy, security, and records management
      risk or vulnerabilities associated with NRC‘s use of social media and the
      effectiveness and efficiency of existing safeguards such as policies,
      security assessments, training, and awareness.
      Integration—an evaluation of how social media is integrated into other
      aspects of the agency including its policies, practices, and procedures.
Key parameters of our methodology included the following:
Environmental Scan
   To gain an understanding of what was being said online regarding NRC and
   nuclear-related topics, the evaluation team conducted a comprehensive
   environmental scan. Using a combination of free- and subscription-based
   social media software, the scan identified:
      Communities of interest – an online community of people who share a
      common interest or passion.
      Conversation areas – an online space for specific web-based
      communication.
      Digital influence – the ability to cause and effect, change behavior, and
      drive measurable outcomes online.
      General chatter – collaborative web-based conversations around a
      specific topic area.
      Thought leaders – individuals, companies, or agencies recognized by
      peers for having innovative ideas, publishing articles, and producing blog
      posts on trends and topics.
      True reach – the number of people influenced by a particular user‘s social
      media outreach.
      Web trends – the type and frequency of web data sent and received by
      social media users.
Key word searches for the environmental scan included nuclear, nuclear power,
nuclear energy, nuclear materials, and nuclear regulation. Key words and topic
searches were also derived from top news items such as the Fukushima
anniversary, the transition of agency leadership from Chairman Gregory Jaczko
to Chairman Allison Macfarlane, and regional community concerns around
nuclear plants at San Onofre, CA and Vermont Yankee, VT. To monitor these
news items, the evaluation team established real-time alerts that automatically
notified the team when new NRC-related content from news, web, blogs, video,
and/or discussion groups were posted.



                                        I-2
Key Informant Interviews
The evaluation team conducted 27 interviews with NRC employees and external
stakeholders between June 2012 and September 2012. A complete list of these
interview participants appears in Appendix VI.
Internal interviewees were identified by NRC leadership during the entrance
conference for this evaluation, by members of the NRC Social Media Working
Group, and by the OIG. Additionally, at the conclusion of the interviews, all
interviewees were asked for recommendations of additional internal and external
sources of input. Internal interviews included representatives from NRC‘s OPA;
Office of Congressional Affairs; Office of Information Services (Enterprise
Architecture, and Standards Branch and Information and Records Services
Division), Computer Security Office; E-Government Initiatives, and Freedom of
Information Act and Privacy Office.
External interview targets were identified by NRC leadership during the entrance
conference, by referral from internal interviewees, and from a comprehensive
environmental scan of prominent online voices in the nuclear arena. Additionally,
all external interviewees were asked for recommendations for additional sources
of input. External interviews included representatives from the nuclear industry,
prominent nuclear bloggers, congressional staff, and the media. Separate
interview guides were developed for internal and external stakeholders. Internal
interview guides focused on the processes and procedures for using social
media and determining NRC‘s desired objectives for social media. External
interviews focused on the type, amount, and frequency of information desired
from NRC through social media as well as the level of satisfaction with NRC
social media efforts and how the agency compares to its peers.
Additionally, because NRC is a regulatory agency and must maintain neutrality
on the issue of nuclear energy, an effort was made to include voices from all
sides of the nuclear debate. However, despite contacting eight representatives
from traditionally anti-nuclear organizations, including Bluewater Valley
Downstream Alliance, Friends of the Earth, Greenpeace, Union of Concerned
Scientists, and Uranium Watch, no one agreed to an interview for this report. A
few individuals from anti-nuclear organizations did express their opinions via the
Google open forum detailed below.
Social Media Techniques
As this was an evaluation of social media, it was important to apply social media
specific techniques to the evaluation. Several free and subscription-based
software tools were utilized for this research, including Radian6, Klout,
Quantcast, SemRush, Tweet Level, Twitalyzer, and SimilarSites.com. These
tools helped to identify key influencers to target for interview requests, analyze
the impact and amplification of NRC‘s social media content, and benchmark NRC
against other online voices in the nuclear industry.
Additionally, because social media is fundamentally about giving an equal voice
to all, a Google Forum was established to solicit feedback from the general public

                                        I-3
on NRC‘s use of social media. This site was promoted via the evaluation team
and by prominent nuclear bloggers and organizations. Feedback obtained via
this channel helped to inform the findings and recommendations in this report.




                                       I-4
Appendix II. Abbreviations and Acronyms

ADAMS           Agency-wide Documents Access and Management System
ANS             American Nuclear Society
CIO             Chief Information Officer
CNN             Cable News Network
CSAC            Computer Security Awareness Course
CSIRT           Computer Security Incident Response team
CSO             Computer Security Office
DOE             Department of Energy
EPA             Environmental Protection Agency
FAA             Federal Aviation Administration
FCC             Federal Communications Commission
FDA             Food and Drug Administration
FERC            Federal Energy Regulatory Commission
FOIA            Freedom of Information Act
FOE             Friends of the Earth
FRA             Federal Regulatory Agencies
FISMA           Federal Information Security Management Act
ICOD            Infrastructure and Computer Operations Division
MD              Management Directive
NARA            National Archives and Records Administration
NEI             Nuclear Energy Institute
NRC             Nuclear Regulatory Commission
OGC             Office of the General Counsel
OIG             Office of the Inspector General
OIS             Office of Information Services
OPA             Office of Public Affairs
PII             Personally Identifiable Information



                              II-1
TOS       Terms of Service
US-CERT   United States Computer Emergency Readiness Team
YA        Yellow Announcement




                      II-2
Appendix III. Social Media Evaluation Glossary
Blog                Blog is a word that was created from two words: ―web log.‖
                    Blogs are usually maintained by an individual or a business
                    with regular entries of commentary, descriptions of events,
                    or other material such as graphics or video. Entries are
                    commonly displayed in reverse-chronological order. "Blog"
                    can also be used as a verb, meaning to maintain or add
                    content to a blog.
Crowdsource         The practice of asking a collection of individuals online for
                    opinions, suggestions, or submissions. For example, you
                    might not be able to choose between two newsletter articles,
                    so you would ask the people who Like you on Facebook or
                    are following you on Twitter which one you should include.
                    Or you can simply post both stories to Facebook and Twitter
                    and discover which one resonates most based on the
                    number of Likes, shares, comments, or retweets.
                    Crowdsourcing can also be helpful if you're planning an
                    event and can't decide on a date or location, or if you're
                    looking for suggestions for a vendor.
Digital Influence   The ability to cause effect, change behavior, and drive
                    measurable outcomes online.
Digital voice       Digital voice is a messaging style specific to social media.

Hashtag             Words preceded by a # sign (e.g., #ctctsocial) can be used
                    to tie various tweets together and relate them to a topic, be it
                    a conference, television show, sporting event, or any
                    happening or trend of your choosing. Twitter automatically
                    links all hashtags so users can search for other tweets using
                    the same tag.

Like(s)             Like(s) are defined by Facebook as a way to "give positive
                    feedback and connect with things you care about.‖
                    Facebook users can "Like" status updates, comments,
                    photos, and links posted by their friends, as well as adverts,
                    by clicking the "Like" button at the bottom of the content.
                    A meme refers to a concept that spreads rapidly from person
Meme                to person via the Internet, largely through email, blogs,
                    networking forums, social media sites, instant messaging
                    platforms, and video streaming sites such as YouTube.
Microblogging       The act of broadcasting very short messages to an
                    audience, such as on Twitter, where posts are limited to 140
                    characters each. Other microblogging services include Plurk


                                  III-1
                and Jaiku.
Network         This can refer to a social network like Facebook, Twitter, or
                LinkedIn, or the people you are connected to on those sites.
                A permalink is an address or URL of a particular post within
Permalink       a blog or website.
Retweet         A retweet is when someone on Twitter sees your message
                and decides to re-share it with his/her followers. A retweet
                button allows them to quickly resend the message with
                attribution to the original sharer's name.
RSS Feed        RSS (Really Simple Syndication) is a family of web feed
                formats used to publish frequently updated content, such as
                blogs and videos, in a standardized format. Content
                publishers can syndicate a feed, which allows users to
                subscribe to the content and read it when they please, and
                from a location other than the website (such as reader
                services like Google Reader).
RSS Reader      An RSS reader allows users to aggregate articles from
                multiple websites into one place using RSS feeds. The
                purpose of these aggregators is to allow for a faster and
                more efficient consumption of information. An example of an
                RSS Reader is Google Reader.
Search engine   This is the process for improving the chance that a webpage
optimization    will rank high in the results for a specific search query.
                Different search engines use different algorithms for how
                they rank results, but some ways to improve results include
                using qualified keywords (i.e., frequently searched-for
                keywords) in headlines and first paragraphs of blog posts,
                and naming photos and videos with those same keywords.
                There are also many on- and off-page technical
                considerations.
Sentiment       A level of assessment that determines whether the tone of
                an article, blog post, tweet, or other content is positive,
                neutral, or negative.
Share           To post or re-post content on a social media site is to share
                it. Facebook specifically has a Share option, which allows
                you to post someone else's content on your page. On
                Twitter, this is called re-tweeting.
Social media    Social media is media designed to be disseminated through
                social interaction, created using highly accessible and
                scalable publishing techniques.



                             III-2
Tweet             Tweets are messages sent to and from Twitter users. They
                  are text-based messages of up to 140 characters.
Viral             When a piece of content on the Internet is shared
                  organically, without prodding or encouragement from the
                  business, organization, or person who created it, it is said to
                  have "gone viral." This means it has been shared on social
                  networks, posted and reposted, tweeted and retweeted
                  multiple times.
Viral marketing   Viral marketing refers to marketing techniques that use pre-
                  existing social networks to produce increases in brand
                  awareness or to achieve other marketing objectives through
                  self-replicating viral processes.
Web analytics     Web analytics is the measurement, collection, analysis, and
                  reporting of Internet data for purposes of understanding and
                  optimizing web usage.




                                III-3
Appendix IV. Best Practices

MEASUREMENT
Suggested Metrics for NRC to Track
The following are industry measures that are not currently measured by NRC but
provide a more holistic perspective of NRC‘s social media performance. Taken
together, they reinforce NRC‘s minimal presence in the larger nuclear digital
discussion.
Comparative Platform Performance
        According to interviews with social media staff, one key metric that NRC is
        not measuring is NRC‘s platform performance against others in the
        nuclear social media space. The table below demonstrates social media
        activity across what we identified were organizations and digital
        influencers within the nuclear digital space (e.g., NRC, NEI, CASEnergy
        Coalition, the American Nuclear Society, Friends of the Earth and Union of
        Concerned Scientists as well as prominent blog writers as identified
        through Radian6, Klout and stakeholder interviews). We also included
        activity within NRC‘s fellow regulatory agencies (the Federal Energy
        Regulatory Commission [FERC], the EPA, and the FCC) to demonstrate
        how NRC performed against both industry and government peers.
NRC social media statistics benchmarked against select digital nuclear influencers and
regulatory peers.
                             Twitter    Twitter:       Twitter:    YouTube:       YouTube:     Facebook
                                        following      tweets      subscribers    views
Nuclear Community
  NEI                           6780          2380         8011            414      1102126        5,555
  CASEnergy Coalition            515           582         1477              5         1,099         N/A
  American Nuclear Society      3530           228         5870             17          3971        4678

Anti-Nuclear
  Friends of the Earth         21722           717         4581           3624      4149213       30,077
  Union of Concerned            9262          6254         2589            215        88891         1951
  Scientists

Regulatory Agencies
  NRC                            2431            0           604            154        18390         502
  FERC                          3,971            0           807            N/A          N/A         452
  EPA                          89,618          173         4,694          3,384      347,818      42,911
  FCC                         500,728           52         2,420            655      221,589       9,691

Nuclear Blogs
  Atomic News                     241          233         1,383            85        20,573        451
  Idaho Samizdat                1,264           91         7,515           N/A           N/A         53
  NEI Nuclear Notes              1664          699          7937           N/A           N/A        N/A
  Atomic Insights               1,663          235         6,608            50        37,908        N/A
  Energy Education Project        485          242          4012             0           245        486
  Margaret Harding                440          148          1295           N/A           N/A        N/A




                                                    IV-1
        The table provides a cursory analysis of readership and activity,
        demonstrating that NRC falls in the low-to-medium scale in terms of
        activity. Of particular note is the prevalence of anti-nuclear groups on
        Twitter, YouTube, and Facebook, the most popular social networking
        sites. This suggests a need for NRC to balance the conversation with
        neutral, fact-based information that the public can use to round-out their
        perception of nuclear energy.
 Sentiment
        Key to understanding the social media environment in which NRC
        operates is an evaluation of conversational sentiment – specifically, the
        positive, negative, or emotionally neutral tone with which NRC and the
        topic of nuclear energy is discussed. Sentiment is typically measured
        according to the proximity of pre-defined words associated with positive,
        negative, or neutral emotion (i.e., ―love,‖ ―hate,‖ ―like,‖ ―dislike‖) with the
        search topic (in this case ―NRC,‖ ―Nuclear Regulatory Commission,‖ and
        ―Nuclear‖).
        According to Radian6, NRC suffers from negative sentiment across social
        media attributed largely to the conversational prominence of anti-nuclear
        users who tend to be more active in social media.


Topics and their frequency in digital nuclear conversations. Source: Radian6.




                                           IV-2
Benchmarked Digital Influence against industry peers
      NRC ranks 54th overall in ―nuclear‖ conversations across social media,
      14th overall according to Klout score measures against top industry
      influencers.
      NRC ranks mid-to-low against other government agencies and nuclear
      digital influencers.
The chart demonstrates the ―share‖ occupied by certain conversation topics in
social media. Specific to nuclear conversations, ―nuclear‖ and mentions of
―Fukushima‖ still dominate the nuclear space. ―NRC‖ is only mentioned in 9.9%
of nuclear-related conversations.
Conversation Share
      NRC is perceived as an industry subject matter expert and influences
      3,000 top ―influencers‖ in the social media space but does not enjoy a
      large share of the overall nuclear conversation.
      Overall, NRC does not have a significant mind share across relevant
      topics (specifically ―nuclear,‖ ―nuclear power,‖ and ―nuclear energy‖).
True Reach & Social Network
      Klout: 3,000 users self-reported that they are influenced by NRC. These
      users include those with Klout and Peerindex scores that exceed NRC‘s
      scores, suggesting great potential for targeted outreach.
      An evaluation of NRC‘s Twitter network boasts a potential reach of 20,000
      when the followers of NRC‘s direct followers are taken into consideration.
      Radian6 data suggests a potential for greater ―reach‖ via Twitter and
      social networks like Facebook, but NRC is not actively engaging so this
      can be interpreted as an untapped resource.
      NRC does not currently engage in a social network strategy (as
      demonstrated by lack of engagement in platforms such as Facebook or
      Ning).
      Twitter and Facebook rank as top places where nuclear digital
      conversations occur and are shared.
Social Media Activity
      Minimal and sporadic overall activity on blog.
      o Highest forum activity based on specific posts. All have less than 100
        comments and shares.
      o Average activity equals 1 comment per post.
      o Average of less than 500 mentions per month.




                                       IV-3
         Twitter Activity:
         o Retweets equal less than 150 per month.
         o NRC does not follow users on Twitter, which is attributed to a lack of
           staffing resources and knowledge. However, as noted previously in the
           report, following users on Twitter will provide a deeper level of
           engagement with users. NRC is encouraged to follow the example of
           fellow regulatory agencies (EPA and FDA) that actively follow other
           Twitter followers.


CONTENT
The following case studies provide examples of how other Government agencies
address content issues of transparency, create visual interest, and build
relationships with influencers. The evaluation team advises NRC to consider the
TSA example for publicly acknowledging public perceptions around comment
censorship. Doing so would help to nurture a more open and transparent
environment with the online nuclear community.
Transparency
Transportation Security Administration (TSA) Addresses Public Outcry
Over Perceived Comment Censorship
 The TSA Delete-O-Meter             In 2010, TSA came under fire with well-publicized
 Source: http://blog.tsa.gov/       public criticism and perception that blog comments
                                    were being frozen, censored, or deleted in a manner
                                    that did not comply with the agency‘s comment
                                    policy. In response, the blog team wrote an article
                                    titled ―Moderation of the Blog, the TSA Delete-O-
                                    Meter (which demonstrates a prominent way of
                                    providing access and visibility to the comment
                                    policy), and Fake Twitter Accounts‖ that directly
                                    challenged these public concerns. Though criticism
                                    against NRC‘s comments allowance has not been as
                                    harsh, frequent, or viral, such sentiments were
                                    expressed during the course of this evaluation.
From the TSA Blog (http://blog.tsa.gov/2010/11/moderation-of-blog-tsa-delete-o-meter.html)
         ―The TSA Blog has been receiving quite a bit of attention this past month and I wanted to
         clarify a few things that have been popping up. It‘s being falsely reported that I froze
         comments on the TSA Blog.

         Comments were never frozen. Over 4,000 comments were posted to the blog in a very
         short period of time and we had to moderate them all prior to approving. When
         moderating, we work from oldest to newest comments. So, after posting several posts in
         a row, the newest post had zero comments for an extended period of time. In my dream
         world, I would have a command center with a moderation team. But the reality is that


                                                    IV-4
       while TSA does have some folks who are able to assist; at times I am the only one
       moderating the blog, so your patience is greatly appreciated.

       We're not new to criticism here at TSA and we‘re definitely not shy about posting
       negative comments as long as they‘re not offensive or overly disrespectful and adhere to
       our comment policy. All you need to do is read what's been approved in the past 3 years
       and you‘ll see that we‘re pretty good at taking punches.

       As far as the Delete-O-Meter, we created it to show that we‘re not really deleting that
       many comments. Currently, the number is at 5,488. That might seem like a high number,
       but let‘s do the math. Since January of 2008, we have received a total of 41,389
       comments. So we‘ve deleted a little over 10% and that number includes spam, double or
       multiple postings, and violations of our comment policy. The Delete-O-Meter is updated
       manually and is not a live counter.‖



REACH
Awareness
Department of Defense (DoD) Hosts Popular „Bloggers Roundtable” As
Outreach Effort to Digital Influencers

 Screen grab of the DoD             The evaluation team advises NRC to consider a
 Roundtable                         bloggers roundtable as a way for reaching out to digital
 Source:
                                    influencers. A good example of this is the DoD‘s
 http://www.dodlive.mil/index.php/c Roundtable series, which the DoD has hosted as far
 ategory/bloggers-roundtable/       back as February 2, 2007. These conference calls
                                    connect bloggers and online journalists interested in
                                    defense issues, programs, and operations with DoD
                                    civilian and military leaders and subject matter experts
                                    (including diplomats and field commanders in Iraq and
                                    Afghanistan). The Roundtable provides source material
                                    where available, including audio, video, transcripts,
                                    biographies, and related fact sheets. These calls are
also broadcast live on Blogtalkradio and podcast via the Pentagon‘s Channel
website as well as iTunes.
NASA hosts social media with
“NASA Social” program
NASA Social is a program to provide
the agency‘s social media followers a
centralized platform to learn and share
information about NASA‘s missions,
people, and programs. NASA‘s Social
program provides behind-the-scenes
access to facilities, opportunities to
speak with and learn from more
scientists, engineers, astronauts and

                                             IV-5
managers, and ―meet and greet‖ sessions where social media followers can
network with fellow digital influencers and NASA social media managers.
For example, in February 2013, NASA will host a two-day event for NASA‘s
social media followers at Vandenberg Air Force Base in California for the launch
of the Landsat Data Continuity Mission. Guests will view the launch, tour
facilities, speak with representatives from Landsat science and engineering
teams, view the launch pad, and meet fellow space enthusiasts.
NASA Social participants are selected at random from those who register interest
on NASA‘s website. Additionally, NASA Social provides press credentials to
social media influencers thereby equalizing access across all forms of media.
According to the NASA Social website:
     ―Social media credentials give users a chance to apply for the same access as journalists
     in an effort to align the access and experience of social media representatives with those of
     traditional media. People who actively collect, report, analyze and disseminate news on
     social networking platforms are encouraged to apply for media credentials. There will be no
     special badge, tour or program for social media attendees. Selection is not random. Those
     chosen must prove through the registration process they meet specific engagement
     criteria. Qualified attendees will have the same access to the event as news media and
     may view the launch, participate in media briefings, tours and other available opportunities.
     All social media accreditation applications will be considered on a case-by-case basis.‖

For more information, visit http://www.nasa.gov/connect/social/index.html.


INFLUENCE
Digital Influencers Identified Through This Evaluation
A best practice in social media is identifying and monitoring digital influencers in
a topic of interest. Doing so allows NRC to evaluate conversational trends and
content offerings by higher rated influencers as a way of assessing what users in
the digital nuclear community are interested in. Adopting these trends in NRC‘s
own content would boost relevance, viewership, and social media activity
because echoing popular topics would lead users to NRC platforms.
Furthermore, knowing who the influencers are helps to build lists for targeted
outreach, enabling NRC to maximize community engagement efforts (such as
blogger roundtables or Twitter press conferences). The list below provides a
snapshot of where NRC lies in the Klout scale against peers identified through
stakeholder interviews, content scans on Radian6, and Klout itself.




                                              IV-6
Klout report on Nuclear Influencers        ORGANIZATION                                 KLOUT SCORE

Source: Klout (http://klout.com)           Union of Concerned Scientists                63

                                           NextBigFuture                                62

                                           Nuclear Energy Institute                     60

                                           Duke Energy                                  60

                                           American Nuclear Society                     60

                                           Barry Brook                                  60

                                           Margaret Harding                             60

                                           Friends of the Earth                         60

                                           Glen Granberry                               58

                                           Fukushima Actu                               57

                                           World Nuclear News                           57

                                           Nuclear Regulatory Commission                56

                                           Rod Adams                                    56

                                           Ben Geman                                    56

                                           Dan Yurman                                   56

                                           Will Davis                                   55

                                           Idaho National Lab                           54

                                           Enformable                                   53

                                           AREVA, Inc                                   52

                                           Nonproliferation Policy Education Center     51
                                           (NPEC)

                                           Forum on Energy                              50

                                           Nuke Roadie                                  50

                                           Energy Solutions                             48

                                           World Nuclear Association                    48

                                           Southern Nuclear                             47

                                           Glenn Williams                               46

                                           North American Young Generation in Nuclear   45

                                           Brian Wheeler                                43

                                           Meredith Angwin                              43

                                           RadioActive! Nuclear Blog                    43

                                           John Wheeler                                 42

                                           Energy Nuclear                               41

                                           Nuclear Townhall                             41

                                           Vermont Yankee                               40

                                           Nicole Stricker                              38

                                           EntrepreNuclear                              37

                                      IV-7 Nuclear Energy                               37

                                           Nuclear Fissionary                           37

                                           Energy Northwest                             34
SECURITY
Social Media and Records Management
Agencies with energy, environment, and defense missions such as the
Department of Energy (DOE) have developed records management guidance for
social media. The figure below illustrates DOE‘s quick reference guide on
managing social media records. Targeted to all DOE personnel, the guide
provides an overview of the records management lifecycle. The guide also
reminds DOE personnel that their responsibility to ensure that records are
maintained, accessible and retrievable applies to social media records. The
guide summarizes the social media records management process at DOE in four
steps:
    Capture records you post or that are posted to you social media platform

    Ensure record integrity by managing content

    Follow disposition schedules to reduce risk

    Destroy temporary records


          DOE’s Records Management Guidance on Social Media




                                      IV-8
Establishment of Permanent Social Media Policies
Revising existing policies and establishing permanent social media policy are
effective ways to institutionalize social media. An example of revising existing
policies is the recently issued (September 2012) DoD Directive, DoD Internet
Services and Internet Capabilities which supersedes Directive-Type
Memorandum 09-026, Responsible and Effective Use of Internet-Based
Capabilities, which was issued in February 2010. The Environmental Protection
Agency (EPA) has established permanent social media policy guidance
(approved in June 2011 and due for updates in June 2014) and developed a
suite of social media guidance documents.




                                       IV-9
Appendix V. Web Tools
Facebook       Facebook is a social utility that connects people with
               friends and others who work, study, and live around
               them. Facebook is the largest social network in the
               world with more than 1 billion users.
Flickr         Flickr is a social network based around online picture
               sharing. With more than 6 billion images, Flickr allows
               users to store photos online and then share them with
               others through profiles, groups, sets, and other
               methods. Flickr has more than 51 million registered
               members and 80 million unique visitors.
Klout          Klout is a free social media analysis tool that
               measures users‘ influence across their social network.
               Klout offers one of the first quantifiable measure and
               methodology of the value of a user‘s social media
               activity. To achieve what is known as a ―Klout score,‖
               the software combines network data (i.e., the number
               of ―followers‖ of ―friends‖) from sites such as Twitter
               and Facebook with engagement indicators (how often
               content generated by those users are responded to or
               shared).
Ning           A fee-based online community site that lets customers
               create their own social networks. Customers can
               create blogs, video sharing sites, show photos, create
               user forums, hold group chats, and more.
Quantcast      Quantcast enables users to buy and sell targeted
               audiences in real time and provides free audience
               reports on millions of web properties
Radian6        Radian6 is a web-based listening platform designed
               to help companies and agencies know what online
               conversation is critical and what is being said about
               them on social media
SEMrush        SEMrush tracks an immense amount of organic data
               in Google and Bing SERPs using a vast array of
               different metrics and types.
Tweet Level    TweetLevel is a Twitter measurement tool created by
               Edelman.
Twitalyzer     Twitalyzer 5.0 is a tool that provides an industry-first
               multidimensional view of 50+ metrics provided in a
               "Trends" report. The report can be a powerful
               analytical tool that allows Twitter users a unique view


                            V-1
             of which of their efforts are creating value and driving
             results.
Twitter      The social media network based on 140-character
             micro-blog posts. Users post short updates that can
             be seen by anyone, even if they are not logged into
             the site. Posts can only include text and links; any
             multimedia content (photos, video, audio) must be
             linked to. The people who follow you will see your
             updates in their timeline when they log in. Unlike with
             Facebook, you do not have to confirm or reciprocate
             the follower connection, meaning people can follow
             your updates without you having to see theirs.
WordPress   WordPress is a content management system and contains
            blog publishing tools that allow users to host and publish
            blogs.

YouTube     YouTube is a video-sharing website on which users can
            upload, share, and view videos. YouTube is the largest
            video sharing site in the world hosting hundreds of millions
            of users from around the world.




                          V-2
Appendix VI. Social Media Evaluation Interview List
All interviews took place between June 2012 and September 2012.
Internal Stakeholders (NRC staff):
   Attorney, Office of the General Counsel, NRC
   Branch Chief, Enterprise Architecture and Standards Branch, NRC
   Branch Chief, Information Services Branch, NRC
   IT specialist/Enterprise architect, Enterprise Architecture Branch, NRC
   Privacy Act Program Analyst, NRC
   Public Affairs Officer, Office of Public Affairs, NRC
   Senior Advisor for E-Government Initiatives, NRC
   Section Chief and Archives Services Section, NRC
   Section Chief, Freedom of Information Act and Privacy Section, NRC
   Senior Congressional Affairs Officer, Office of Congressional Affairs, NRC
   Senior IT Security Officer/Team Leader, Policy Standards and Training
   Team, Computer Security Office, NRC
   Senior IT Security Officer/Team Leader, NRC
   Senior Level Advisor on Public Affairs, Office of Public Affairs, NRC
   Team Lead, Technology Direction and Standards Team, NRC
   Web Master, Office of Information Security, NRC
External Stakeholders (Press)
   Energy Editor, AOL, Huffington Post
   Nuclear Writer, Huffington Post
   Producer, CNN News
External Stakeholders (Digital Influencers)
   Blogger, Atomic Power Review
   Blogger, Idaho Samizdat: Nuke Notes
   Blogger, Yes Vermont Yankee




                                         VI-1
External Stakeholders (Nuclear Industry)
   Digital Strategy Director, CASEnergy
   Senior Manager for Social Media, Nuclear Energy Institute
   Social Media Manager, Center for Sustainable Energy
External Stakeholders (US Government and US Senate Staff)
   US-CERT Representative, United States Computer Emergency Readiness
   Team
   Policy Director, US Senate




                                      VI-2
Appendix VII. References and Source Materials
   A Report on Federal Web 2.0 Use and Record Value. 2010. National
   Archives and Records Administration.

   Federal CIO Council. Guidelines for the Use of Social Media by Federal
   Departments and Agencies. September 2009.

   Federal CIO Council. Guidelines for Secure Use of Social Media by Federal
   Departments and Agencies. September 2009. Information Security and
   Identity Management Committee (ISIMC) Network and Infrastructure
   Security Subcommittee (NISSC) Web 2.0 Security Working Group
   (W20SWG). Rockville, MD.

   Federal Web Managers Council: Social Media and the Federal Government:
   Perceived and Real Barriers and Potential Solutions. 23 December 2008.
   The context for using social media within the Federal Government.

   Forrester Research, Inc. Social Media Policy Template For CIOs. 2010.
   Forrester Social Media Policy Template.

   GAO-10-872T - Information Management Challenges in Federal Agencies’
   Use of Web 2.0 Technologies. 22 July 2010.

   GAO-12-961T – PRIVACY: Federal Law Should Be Updated to Address
   Changing Technology Landscape. 31 July 2012.

   GAO-11-605 – SOCIAL MEDIA: Federal Agencies Need Policies and
   Procedures for Managing and Protecting Information They Access and
   Disseminate. 28 June 2011.

   General Services Administration. CIO 2106.1 GSA Social Media Policy. 17
   July 2009. Washington, DC.

   General Services Administration. CIO P 2106.2 GSA Social Media
   Handbook. 17 July 2009. Washington, DC.

   Guidance for Agency Use of Third Party Web Sites and Applications. 25
   June 2010. OMB Memorandum 10-23.




                                    VII-1
INTERIM GUIDANCE REPRESENTING EPA ONLINE USING SOCIAL
MEDIA. N.d. (no date) This guidance applies to EPA employees
representing EPA online in their official capacities and to contractors
working on behalf of EPA. Http://govsocmed.pbworks.com/Guidance%3A-
Representing-EPA-Online-Using-Social-Media.

NARA Bulletin 2011-02. 20 October 2010. Guidance on Managing Records
in Web 2.0/Social Media Platforms.

NARA Guidance on Managing Web Records. January 2005. This guidance
will assist agency officials in this regard, including agency program staff,
webmasters, IT staff, and other agency officials who have a role in web site
management and administration.

NRC. NRC Blog Comment Guidelines. N.d. Nuclear Regulatory
Commission's blog comment guideline document seeks to establish a
constructive dialogue and information exchange. Rockville, MD.

NRC. Computer Security Incident Response Policy. N.d.

NRC. Interim Guidance on the Use of Social Media. January 2011

NRC. Management Directive 3.1. N.d. Freedom of Information Act, Office of
Information Services.

NRC. Management Directive 3.2. N.d. Privacy Act, Office of Information
Services.

NRC. Management Directive 3.53. N.d. Records and Document
Management Program, Office of Information Services.

NRC. NRC Citizen’s Guide to U.S. Nuclear Regulatory Commission
Information. August 2003. Rockville, MD.

NRC. Official Presence Social Media Project Business Vision and Scope. 15
February 2011. Rockville, MD.

NRC OPA. U.S. NRC – Independent Regulator of Nuclear Safety. June
2012. NUREG/BR-0164, Rev. 9. Rockville, MD.



                                  VII-2
NRC. Open Government Plan. January 2010.

NRC. Personally Identifiable Information Breach Notification Policy. N.d.,
Ash, Darren B. Chief FOIA Officer Report. 2012.

NRC. Privacy Impact Assessment for the Official Presence Use of Social
Media Platforms. September 2009.

NRC. Public Involvement in the Nuclear Regulatory Process. October 2004.
Rockville, MD.

NRC. Social Media References for Audit. N.d. A. OMB’s Open Government
Directive requires use of new innovative approaches and tools to foster
more participation, transparency, and collaboration.
Http://www.nrc.gov/public-involve/open/philosophy.html#plan Rockville, MD.

NRC. Standard Blog Procedures. N.d. Rockville, MD.

NRC. Standard Twitter Procedures. N.d. Rockville, MD.

NRC. Standard YouTube Procedures. N.d. Rockville, MD.

NRC. U.S. Nuclear Regulatory Commission Guideline for Conducting Public
Meetings. June 2006. NUREG/BR-0224, Rev. 1. Rockville, MD.

NRC. Web Site Policy Exception Evaluation. February 2011. Office of
Information Services.

OGIS. Open Government Directive (December 2009). 1 Feb. 2010. OGIS
Q&A, updated February 1, 2010.
Http://www.whitehouse.gov/omb/assets/memoranda_2010/m10-06.pdf;
Rockville, MD.

Smith, Aaron. Government Online. 27 April 2010. The internet gives citizens
new paths to government services and information.
Http://pewinternet.org/Reports/2010/Government-Online.aspx.

Social Media, Web-Based Interactive Technologies, and the Paperwork
Reduction Act. 7 April 2010. OMB Memorandum.



                                  VII-3
Sunstein, Cass R. MEMORANDUM FOR THE HEADS OF EXECUTIVE
DEPARTMENTS AND AGENCIES, AND INDEPENDENT REGULATORY
AGENCIES. 7 April 2010. Social Media, Web-Based Interactive
Technologies, and the Paperwork Reduction Act. Washington, DC.

Transparency and Transformation Through Technology. March 2010.
Federal CIO Survey.

Travers, Linda A. Interim Guidance for EPA Employees Who Are
Representing EPA Online Using Social Media. 26 January 2010.




                               VII-4
